Identification And Review
Of The Department’s Major
 Information Technology
    Systems Inventory

     U.S. Department of Justice
   Office of the Inspector General
            Audit Division

        Audit Report 07-37
            June 2007
               IDENTIFICATION AND REVIEW
       OF THE DEPARTMENT’S MAJOR INFORMATION
           TECHNOLOGY SYSTEMS INVENTORY

                        EXECUTIVE SUMMARY

       This audit report responds to a directive contained in the fiscal
year (FY) 2006 Department of Justice appropriations bill conference
report that the Office of the Inspector General (OIG), among other
things, provide an inventory of major Department of Justice (DOJ)
information technology (IT) systems.1 In a prior report, the OIG
developed a preliminary inventory of DOJ IT investments based on
DOJ’s reporting to the Office of Management and Budget (OMB). In
this report, the OIG has refined the inventory to identify 38 major DOJ
IT systems and to provide cost and other information on the 38
systems. In addition, this OIG audit provides information on the way
that DOJ collects cost information for its IT investments.

      In this report, we provide information on DOJ’s IT inventory,
including system names, descriptions, DOJ component owner, future
funding requirements, and implementation status. This information is
discussed throughout the report and is summarized in the report
appendices.

       We also attempted to provide cost data on each of the DOJ’s
major systems. Because DOJ’s financial systems do not provide
sufficiently detailed cost data on individual IT systems, we collected
cost information from DOJ components’ IT system managers.

      This report includes cost data provided by the components for
the 38 major DOJ systems. In addition, we attempted to perform
detailed testing on the costs of three IT systems from the components
responsible for the majority of DOJ’s IT spending – the Federal Bureau
of Investigation (FBI), Drug Enforcement Administration (DEA), and
Justice Management Division (JMD) – to verify the accuracy of the cost
information.

      We found that the DOJ’s approach to IT system cost reporting is
fragmented and lacks the management controls necessary to ensure
the accuracy and completeness of system cost data. Moreover, our
detailed testing of the costs of the three sampled systems confirms
      1
       Conference Report for the Fiscal Year 2006 Science, State, Justice,
Commerce, and Related Agencies Appropriations Act (P.L. 109-108).
                                      –i–
that DOJ does not have complete cost data for any of these IT
systems. We determined that the $327.9 million combined costs
reported for these three systems was understated by at least $68
million.

       We also found that the methods DOJ components use to track
and report the actual costs of IT systems vary. Even within DOJ
components, such as the FBI, differences in methods also exist for
collecting cost information for different IT systems. We found that IT
system managers are generally responsible for developing and
maintaining the cost data they report, and neither the Chief
Information Officers (CIO) at the component and DOJ levels nor the
Department Investment Review Board (DIRB) evaluates and approves
the methods used or test the validity of the cost data reported.2

      Although our audit did not examine the components’ core
financial systems in detail, we found that the cost data contained in
these systems generally does not allow a determination of individual IT
system costs.

Background

       Since FY 2001, Congress has authorized more than $12 billion
for DOJ IT equipment, software, and services – an average of over
$2 billion annually. In FY 2007, DOJ spending authority represents
approximately 4 percent of the $64 billion authorized for IT across the
federal government and approximately 11 percent of DOJ’s annual
budget.

      DOJ IT decision-making and oversight involves Congress, OMB,
the DIRB, and CIOs at the DOJ and component levels. DOJ and
component CIOs are required to manage their respective Capital
Planning and Investment Control processes in accordance with the
Clinger-Cohen Act of 1996 and OMB directives.3 The Clinger-Cohen
Act defines Capital Planning and Investment Control (CPIC) as the
process for maximizing the value, and assessing and managing the

       2
          The DIRB is a group chaired by the Deputy Attorney General and vice-
chaired by the DOJ CIO that is responsible for Department-level oversight of major
DOJ IT investments and for ensuring that components’ IT investments are aligned
with DOJ’s IT strategy. The DIRB also includes senior DOJ officials with IT and
financial management expertise.
       3
           The Clinger-Cohen Act is codified in 40 U.S.C. § 11312 (1996).

                                        – ii –
risks, of executive agency IT acquisitions. As part of this audit, we
reviewed documents that contain DOJ IT system cost data, including
OMB Exhibits 300 (Business Case) and OMB Exhibit 53 (IT Investment
Portfolio).

Congressional Request

        The conference report for P.L. 109-108 directs the OIG to:
(1) produce an inventory of all major DOJ IT systems and planned
initiatives, and (2) report on the effectiveness of DOJ’s IT planning
efforts. In a prior report, the OIG developed a preliminary inventory
of investments based on DOJ’s reporting to OMB, which we have
refined for this report to identify major DOJ IT systems.4

      In this report, we provide a more detailed inventory that
includes the following information for each major DOJ IT system:

       •   system name
       •   system description
       •   DOJ component owner
       •   cost
       •   implementation status

      In addition to reporting on the inventory of major DOJ IT
systems, the OIG was asked to provide another report detailing all
research, plans, studies, and evaluations that DOJ has produced, or is
in the process of producing, concerning its IT systems, needs, plans,
and initiatives. A separate OIG audit report will present this analysis.




       4
        Department of Justice, Office of the Inspector General. Inventory of Major
Department of Justice Information Technology Investments as of FY 2006, Audit
Report Number 06-25, March 2006.




                                      – iii –
Inventory of DOJ IT Systems and Projects

       In developing an inventory of major DOJ systems, we identified
38 major IT systems operated by, or under development in, 7 DOJ
components. The FBI has the largest number of IT systems in the
inventory with 21, followed by the DEA with 7, and JMD with 6.5
Because these three components make up nearly 90 percent of the
total inventory, we focused on these three components’ IT cost-
reporting practices in this audit.

      The following chart shows the distribution of all 38 major DOJ IT
systems and projects by component, with a further breakout by major
FBI entity.

                            Distribution of IT Inventory

                                          DEA, 7


            FBI- NSB , 5
                                                            JMD, 6       FBI-STB
                                                                         FBI-CIO
                                                                         FBI- NSB
                                                                         DEA
                                                                         JMD
            FBI-CIO, 5                                     EOIR, 1
                                                                         EOIR
                                                                         OJP
                                                            OJP, 1
                                                                         ATF
                                                                         BOP
                                                           ATF, 1
            FBI-STB, 11
                                                            BOP, 1




       Source: OIG

      The following table lists the 38 major IT systems in DOJ’s IT
inventory, grouped by DOJ component.




       5
          Although the Organized Crime Drug Enforcement (OCDETF) Fusion Center
is located within the Office of the Deputy Attorney General, for purposes of this audit
we included the Fusion Center IT system as part of the DEA. The DEA’s unobligated
funds developed the Fusion Center.
                                        – iv –
 DOJ Inventory of 38 IT Systems and Projects by Component

Component                              Systems and Projects
    FBI                              21 Systems and Projects

  FBI STB        Science and Technology Branch – 11 Systems and Projects
     1         Integrated Automated Fingerprint Identification System
               Next Generation Integrated Automated Fingerprint Identification
     2         System
     3         National Instant Criminal Background Check System
     4         National Crime Information Center
     5         Law Enforcement Online Re-engineering/Relocate
     6         Law Enforcement National Data Exchange Rev 9/7
     7         Combined DNA Index System
     8         Electronic Surveillance Data Management System
     9         Digital Collection
               Biometric Reciprocal Identification Gateway/Criminal Justice
    10         Information Sharing Interoperability Initiative
    11         Computer Assisted Response Team Storage Area Network
                              Chief Information Officer Branch –
 FBI OCIO
                                    5 Systems and Projects
     1         Sentinel
     2         Data Centers
     3         Technical Refresh Program
     4         Investigative Data Warehouse
     5         Multi-Agency Information Sharing Initiative Regional Data Exchange
 FBI NSB &                National Security Branch and Security Division –
Security Div                          5 Systems and Projects
     1         Terrorist Screening Center
     2         Foreign Terrorist Tracking Task Force
     3         Security Management Information System
     4         Information Assurance Technology Infusion
     5         Sensitive Compartmented Information Operational Network
   DEA                                7 Systems and Projects
     1         Model 204 Corporate Systems
     2         E-Commerce-Controlled Substances Ordering System
     3         EPIC Information Systems
     4         Concorde
     5         FIREBIRD
     6         Merlin
     7         OCDETF Fusion Center System
                                      –v–
     JMD                             6 Systems and Projects
      1        Integrated Wireless Network
      2        Unified Financial Management System
      3        Litigation Case Management System
      4        Classified Information Technology Program
      5        Justice Consolidated Office Network
      6        Public Key Infrastructure
     ATF       National Integrated Ballistics Information Network
     BOP       Inmate Telephone System-II
    EOIR       eWorld
     OJP       Grants Management System

Source: OIG analysis

Cost Data for DOJ’s Major IT Systems

      One of our objectives was to determine the actual amounts DOJ
has spent on the 38 IT systems identified in the inventory. To
accomplish this, we first considered using data from the core financial
systems used by the various DOJ components and their related IT
systems. However, we found that the components’ financial systems
are not required to organize data for CPIC cost reporting purposes and
thus do not contain costs for individual IT systems.

       We next considered any control procedures specific to reporting
IT system costs. However, none of the three components whose
individual system we tested in depth – the FBI, DEA, or JMD – had
established control procedures to ensure that the actual costs reported
for their IT systems were complete and accurate. We concluded that
component CIOs lack the control procedures necessary to ensure
accuracy and completeness in the CPIC cost reporting function and this
likely contributed to incomplete costs reported for the DOJ IT systems
we tested.

       Because we lacked a source of cost data for individual IT
systems within the DOJ, the OIG developed a questionnaire related to
the 38 major systems in the inventory. Through the DOJ CIO, we
distributed these questionnaires to the components’ IT system
managers. The completed questionnaires included: (1) annual costs
incurred since the system’s inception through FY 2005, (2) estimated
funding requirements through FY 2012, and (3) a description of the
cost tracking methods used by each IT system.

                                     – vi –
          The following table shows the total costs of the 38 major DOJ IT
     systems through FY 2005 and the amounts estimated through FY
     2012, as reported to us by the components’ system managers.

                   Costs Incurred and Estimated as Reported
                       for the 38 Major DOJ IT Systems

                                        Actual Costs         Actual and
                                      Incurred through    Estimated Costs
            Component                     FY 2005a        through FY 2012

    FBI – 21 systems                  $   3,344,267,750   $    8,629,480,672
    DEA – 7 systems                   $   1,176,437,903   $    2,276,009,456
    JMD – 6 systems                   $     984,461,302   $    3,771,279,876
    ATF, BOP, EOIR, and OJP -
    1 system each                     $     222,596,693   $      394,855,788
    Total DOJ                         $   5,727,763,649   $   15,071,625,792

Source: OIG analysis of completed questionnaires
a
    Due to rounding, values do not sum.

     Testing the Accuracy of Reported Costs

          Next, we judgmentally selected 3 of the 38 questionnaires
     completed by the IT system managers in the 3 components with the
     most IT systems – the FBI, DEA, and JMD – to perform tests on the
     accuracy of the cost data for “Actual Costs Incurred through FY 2005.”

           Due to the insufficient internal controls over the completeness of
     the costs reported, we assessed as “high” the risk that DOJ IT system
     costs may be understated. Accordingly, we focused our attention on
     determining whether the costs reported for the IT systems were
     complete.

           Testing for the completeness of costs without a means of
     sampling transactions from the entire financial system is considerably
     more difficult than simply confirming that reported costs exist.
     Although we used components’ financial and budget system data to
     the extent possible in attempting to verify the costs reported to us, we
     cannot provide assurance that our audit has identified all the costs
     associated with the three selected IT systems.


                                          – vii –
         The systems we selected for testing are:

         •   FBI’s Law Enforcement Online (LEO),

         •   DEA’s Concorde, and

         •   JMD’s Justice Consolidated Office Network (JCON).

      The following table shows the costs each system manager
provided us through FY 2005 and the cost amounts identified by the
OIG for each of these systems.

             Comparison of Components’ Reported Costs and Costs
             Identified by the OIG for Three Sampled Systems
                                           ($ in millions)


                     Amount               Amount
    IT System      Reported by         Identified by         Amount of Percentage
      Tested       Component               OIG               Differencea Difference
    LEO             $       115          $        128          $      13        11%
    Concorde        $      19.8         $        21.3          $     1.5         8%
    JCON            $       194          $        246          $      53        27%

Source: OIG analysis
a
    Due to rounding, not all values sum.

      In the next sections, we describe our results for each of these
three systems.

Law Enforcement Online

       LEO is the FBI’s Internet-based communication system and
information service for law enforcement agencies nationwide.
Thousands of police officers and other employees of local, state, and
federal law enforcement agencies are able to access LEO 24 hours a
day, 7 days a week.

       In its completed questionnaire, the FBI reported $115 million in
total costs incurred for LEO through FY 2005. The two largest
elements included $74 million related to a cooperative agreement with
Louisiana State University (LSU) that developed the LEO system and
$30 million for FBI salaries and benefits to maintain the system.


                                           – viii –
       To test the completeness of the reported amounts associated
with the FBI’s cooperative agreement with LSU, we obtained a listing
of all payments the FBI made to LSU from the FBI financial system.
Reconciling all the financial system payment information and the
reported amounts would have taken an inordinate amount of time, but
from a random review of some of the FBI financial system’s listed
payments, we identified five requisitions related to LEO totaling
$850,000 that were not included in the project management cost data.
We also obtained directly from LSU amounts invoiced to the FBI since
1995 when LEO was created. When we compared the LSU and FBI
amounts for LEO, the LSU amounts were more than $13 million
greater than the amounts recorded by the FBI.

      FBI officials told us it was likely the LEO cost data was missing
LSU transactions from all FBI divisions. Because LEO’s costs are
tracked by the FBI Criminal Justice Information System (CJIS)
Division, LEO activity involving other divisions or offices of the FBI
must be reported to the CJIS to be included in the LEO cost reports.

      Finally, we verified that approximately 30 FBI employees are
working on LEO-related activities, and we concluded that the reported
costs averaging $3 million annually over the 10-year period are
reasonable.

Concorde

       Concorde is a DEA system designed to integrate DEA’s IT
functions, improve business processes, and enable information sharing
within the DEA. It is intended to allow DEA Special Agents,
Intelligence Analysts, and other investigative professionals to manage
investigative case files digitally. The central feature of the Concorde
system is the Investigative Management Program and Case Tracking
System (IMPACT), a web-based case management system.

      In responding to our request for Concorde cost information, the
DEA reported that the project began in 2000, with related costs
through FY 2005 totaling $19.8 million. The DEA’s response to our
questionnaire also stated government personnel costs amounted to
$3.7 million, and that five contractors were individually paid at least
$1.3 million over this same period.

       The DEA’s financial system is not organized to easily and reliably
identify all the costs associated with any particular IT system.
However, in FY 2005 DEA finance staff created a unique code for

                                  – ix –
Concorde funding. This code was established so the financial system
could easily track funding specifically allocated for Concorde. DEA
finance staff provided us with a financial system report that captured
all activity associated with the Concorde funding code in FYs 2005 and
2006. To the extent possible, we tested the completeness of contract
costs contained in this financial system report for FYs 2005 and 2006.

      By comparing the financial system report to the Concorde
project management cost data, we identified $702,555 in omitted
software expenditures. DEA officials told us the incomplete project
management cost data may have been related to the accounting
treatment for Concorde’s software expenditures, which requires these
costs to be reported as an asset in DEA’s financial statement
throughout the development phase rather than as an expense. In
addition, we determined that expenditures totaling approximately
$770,000 during the first 2 years of the project were not included in
DEA’s response to our request.

      We also evaluated the $3.7 million in government personnel
costs DEA reported for Concorde, or approximately $600,000 annually
between FYs 2000 and 2005. Although our analysis suggests that
these costs are reasonable, these amounts are not based on actual
data. DEA officials told us they have no procedures for tracking the
time its employees spend working on any particular project, and the
personnel costs are estimates made at the beginning of the fiscal year.

Justice Consolidated Office Network

      JCON is the common office automation platform administered by
JMD that over 70,000 employees from 16 DOJ components use daily.
JCON provides IT tools and services that allow these employees to
perform their computer-based work duties.6 Specifically, JCON
provides the basic IT computing framework for DOJ, which includes
hardware such as networked workstations and printers, and
applications such as e-mail and word processing. JCON also provides
the infrastructure for components to access other IT systems, such as
case management databases and DOJ’s Financial Management
Information System.

      The JCON system manager reported $193.6 million in total costs
since FY 2001, including $50 million paid to BAE Systems, the single
      6
        The amounts discussed below represent JCON Planning and Acquisition
only. JCON maintenance is funded by the 16 participating DOJ components.

                                     –x–
largest contractor that provides full life cycle support services for
JCON. From an overall listing of payments DOJ made to this
contractor – containing over 1,400 payments totaling more than $149
million – we identified 504 payments related to JCON made between
FYs 2002 and 2005 totaling $49,537,777. The difference between the
value we calculated and the value reported by JCON is $89,135 – less
than 1 percent of the reported costs.

       We also discussed financial issues with the JCON Project
Management Office (PMO) and learned it would be possible to create a
report from the financial system that could identify planning and
acquisition-related costs to JCON. The PMO provided us with a report
that matched the $193.6 million figure reported to us on our
questionnaire. Officials told us this amount included the government
full-time equivalent (FTE) costs incurred over the period.

       In addition to comparing FY 2005 CPIC and budget data, we
compared the $246 million total amount reported to OMB in the JCON
Exhibit 300 for planning and acquisition to the $193.6 million total
amount reported in the OIG questionnaire. JCON officials told us that
total costs in the Exhibit 300 were $53 million more than total costs
reported to the OIG because the Exhibit 300 includes expenditures
from FYs 2000 and 2001 and are not considered part of the current
version of JCON, which is called JCON IIA.

      We researched government and industry sources for more
information on JCON and JCON contracts. This search identified a
$500 million JCON contract awarded in 1996, more than 5 years
before the first costs reported in our questionnaire. Although the PMO
response to our questionnaire made clear that the reported costs
relate to JCON IIA, we consider the JCON initiative to have begun in
1996 when the decision was made to replace disparate office
automation systems with a consolidated system.

       The JCON PMO confirmed that this first attempt at replacing
existing office automation systems, known as JCON I, began in 1996
and was ultimately terminated along with the contract in 1998 when it
did not work. JCON II followed JCON I and evolved into JCON IIA by
FY 2002. Because the earlier JCON efforts predate the current JCON
Project Manager and other staff, they were not able to provide us with
the complete costs for JCON prior to FY 2002.

      In summary, by using financial system and budget data we were
able to verify the costs the JCON Project Management Office reported
                                – xi –
to us. However, the Project Management Office said these costs only
represent the current standard architecture, JCON IIA, and not
previous versions of JCON. Although JMD views the various versions
of JCON as separate systems, we believe the true cost of JCON should
include all costs incurred since 1996 when the JCON project was
initiated. Therefore, we conclude that JCON’s costs since 1996 should
be at least $53 million more than the $193.6 million we verified. In
addition, because complete cost data was not available for JCON prior
to FY 2002, we were unable to determine what amounts, if any, were
paid in connection with the 1996 $500 million contract.

Conclusions

      We found that IT system cost reporting within the DOJ is
fragmented and lacks the management control procedures necessary
to ensure such cost tracking is accurate and complete.

       Moreover, DOJ does not have complete cost data for the three IT
systems we tested and, based on our testing and review of data
produced by DOJ’s financial and budgeting systems, in general we lack
confidence in the accuracy of the cost data reported for DOJ’s IT
systems. In our opinion, the lack of complete cost data that is
verifiable for DOJ’s IT systems compromises the effectiveness of DOJ’s
IT oversight entities, including Congress, the OMB, the DIRB, and DOJ
and component CIOs.

       In this report, we make three recommendations to improve the
accuracy and completeness of DOJ’s reporting of IT system costs. The
recommendations involve: (1) ensuring that components develop
methods of reporting of actual and verifiable IT system costs,
(2) better integrating OMB Exhibits 53 with budget submissions, and
(3) assessing the feasibility of using the planned Unified Financial
Management System for consistent and accurate reporting of
individual IT system costs.




                                – xii –
                                TABLE OF CONTENTS

INTRODUCTION ............................................................................ 1
     Audit Methodology ................................................................ 1
     Identifying the Inventory of Major IT Systems .......................... 2
     DOJ’s IT Spending Oversight Structure .................................... 3

FINDINGS AND RECOMMENDATIONS ............................................... 8

Inventory of DOJ Major IT Systems and Projects and Related Costs ..... 8

IT Capital Planning and Investment Control Environment .................. 12

DOJ Core Financial Systems ......................................................... 17

Verification of IT System Cost Data ............................................... 19
       FBI Law Enforcement Online................................................. 19
       DEA Concorde .................................................................... 26
       JMD Justice Consolidated Office Network ................................ 31

CIOs Role in IT Spending and Budgeting ........................................ 35

Other Congressional Requests for DOJ IT Systems Cost.................... 37

Conclusions................................................................................ 39

Recommendations....................................................................... 39

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ......... 40

STATEMENT ON INTERNAL CONTROLS ........................................... 41

APPENDIX I:        OBJECTIVES, SCOPE, AND METHODOLOGY ................ 42

APPENDIX II: MAJOR IT SYSTEMS & PROJECTS ............................. .44

APPENDIX III: PRIOR REPORTS.................................................... .49

APPENDIX IV: MAJOR DOJ IT SYSTEMS – DESCRIPTION &
     IMPLEMENTATION STATUS… ............................................... .52

APPENDIX V: DESCRIPTIONS OF THE LEO ACTIVITIES FUNDED BY
     THE FBI AT LSU ................................................................ .59
APPENDIX VI:      OTHER MATTERS ................................................. .61

APPENDIX VII: ACROYNMS ......................................................... .63

APPENDIX VIII: THE JMD RESPONSE TO THE DRAFT REPORT ........... .65

APPENDIX IX: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
              SUMMARY OF ACTIONS NECESSARY TO CLOSE
              REPORT ............................................................. .68
                             INTRODUCTION

      The conference report for the fiscal year (FY) 2006 Science,
State, Justice, Commerce, and Related Agencies Appropriations Act
(P.L. 109-108) directs the Office of the Inspector General (OIG) to:
(1) produce an inventory of the Department of Justice’s (DOJ) major
information technology (IT) systems and planned initiatives, and
(2) report on the effectiveness of DOJ’s IT planning efforts. This audit
report responds to the congressional request to compile an inventory
of DOJ’s major IT systems.

     In this report, we provide the following information for each
major system:

       •   system name
       •   system description
       •   DOJ component owner
       •   cost
       •   implementation status

Audit Methodology

      The OIG developed a three-phase approach to respond to the
congressional request. In the first phase of this effort, we used DOJ’s
IT Investment Portfolio – known as the Office of Management and
Budget (OMB) Exhibit 53 – to preliminarily identify the universe of
major IT and other investments.7 In March 2006, we issued the Phase
I report that listed unaudited information on 46 IT investments listed
in the OMB Exhibit 53.8

      In Phase II, we attempted to verify the DOJ’s IT system
inventory and the information requested in the conference report.
This report provides the results of that review.

      In Phase III, the OIG will provide a separate report detailing all
research, plans, and studies and evaluations the Department has
produced concerning IT systems, needs, plans, and initiatives. The

       7
          The OMB Exhibit 53 IT investments report include systems, projects,
offices, salaries, and other IT related costs.
       8
        Department of Justice, Office of Inspector General. Inventory Of Major
Department Of Justice Information System Investments as of Fiscal Year 2006, Audit
Report Number 06-25, March 2006.

                                       -1-
OIG’s Phase III report also will identify the depth and scope of any
problems DOJ has experienced in the formulation of its IT plans.

Identifying the Inventory of Major IT Systems and Projects

     Our Phase I report identified 46 major DOJ investments with
appropriations of $15 million and higher between FYs 2005 and 2007.9

       In this report, we refined this universe of investments by
applying criteria for defining major IT systems. By reviewing those
entities with oversight of DOJ IT spending and the projects or systems
they currently are monitoring or have an interest in, we identified the
inventory of 38 major IT systems and projects.

      The following table lists the entities with oversight
responsibilities for DOJ’s IT spending and actions that indicated to us a
particular IT system or project is major.




       9
          The Exhibit 53 that DOJ provides to OMB combines all its systems related to
office automation and infrastructure and reports them in a single entry called
Consolidated Enterprise Infrastructure. Although our Phase I report did not cite the
individual IT systems that comprise the Consolidated Enterprise Infrastructure, we
have done so in this report.
                                       -2-
            DOJ IT Spending Oversight Entities and Functions


      IT Spending Oversight                  Actions Indicating an IT System or
               Entity                                   Project is Major
    Congressional Appropriations           IT system is mentioned in the Conference
    Committees                             Report to the Appropriations Bill.
                                           OMB requests a business case (Exhibit
    Office of Management and               300) for an IT system or project, or
    Budget                                 selected for compliance with Earned Value
                                           Management requirements.a
    Department Investment                  An IT system or project that is monitored
    Review Board (DIRB)                    by the DIRB.
    Office of the Chief Information        A system or project is monitored in the
    Officer (OCIO)                         OCIO's Dashboard.b

Source: OIG
a
    Earned Value Management is a tool that measures the performance of a project by
    comparing the variance between established cost, schedule, and performance
    baselines and what is actually taking place.

b
    The Dashboard IT project monitoring tool is described in the Findings section of this
    report.

          The roles of these oversight entities and the methods they
     employ to monitor major IT systems or projects follow.

     DOJ’s IT Spending Oversight Structure

           DOJ’s IT oversight structure is based primarily on provisions
     contained in the Clinger-Cohen Act, 40 U.S.C. § 11312 (1996). At the
     time the Clinger-Cohen Act was passed, Congress recognized that the
     federal government had failed to modernize its information technology
     systems, resulting in billions of wasted taxpayer dollars.

          The major provisions of the Clinger-Cohen Act increased the
     authority and responsibility of officials at OMB and other Executive
     Branch agencies, including DOJ, in the following ways:

            •   The OMB Director is required to promote and improve the
                acquisition, use, and disposal of IT by the federal government
                to improve the productivity, efficiency, and effectiveness of
                federal programs.


                                              -3-
       •    The Attorney General is required to design and implement a
            process for maximizing the value, and assessing and
            managing the risks, of IT acquisitions.10

       •    The DOJ Chief Information Officer (CIO) is required to provide
            advice and other assistance to senior management to ensure
            IT is acquired and managed in a way that promotes the
            effective and efficient design and operation of all major
            information resources.11

      In addition to the structure established by the Clinger-Cohen
Act, Congress directed the DOJ to establish the DIRB, led by the
Deputy Attorney General, which we describe below.

      Another feature of the IT spending oversight structure at the
DOJ is the restriction on reprogramming or making use of funding for
purposes beyond those established in the annual appropriation
process. As with other types of spending, DOJ is required to notify the
Appropriations Committees in both the Senate and House 15 days in
advance of any reprogramming that exceeds the limitations
established in the law.

DOJ IT Spending Oversight Entities

      Four primary entities oversee DOJ’s IT spending:
(1) the congressional appropriations committees, (2) OMB, (3) the
DIRB, and (4) DOJ’s OCIO. By identifying the IT systems these four
oversight entities are currently monitoring, we refined our universe of
major IT systems. In the remainder of this report, we provide cost
and other information related to 38 major IT systems.

      Congressional Appropriations Committees. The Appropriations
Committees and Subcommittees of the Senate and House of
Representatives are responsible for reviewing the President's Budget,
receiving testimony from government officials, and appropriating funds
for the federal government. In recent years, these committees have
expressed concern over DOJ’s high-profile IT system failures, such as
the Federal Bureau of Investigation’s (FBI) Virtual Case File case

       10
         The Clinger-Cohen Act defines this process as an agency’s Capital Planning
and Investment Control process.
       11
         In addition to a CIO for DOJ, the Clinger-Cohen Act anticipated that a CIO
would be established as needed at DOJ components.

                                       -4-
management system, as well as the large amount of resources
devoted to IT. Consequently, 13 IT systems cited in the Conference
Report to the FY 2006 Science, State, Justice, Commerce, and Related
Agencies Appropriations Act are included in our revised inventory of
major IT systems.12

       Office of Management and Budget. OMB is responsible for
assisting the President in overseeing the preparation of the federal
budget and supervising its administration. With regard to IT spending
at Executive Branch agencies, each fiscal year OMB reviews the
business cases, presented on OMB Exhibits 300, for a number of IT
systems and projects. The Exhibit 300 includes information on
individual IT system program and procurement planning, risk
mitigation and management planning, realistic cost and schedule
goals, and measurable performance benefits. The Exhibit 300 also
includes a summary of prior years’ spending.

      Our list of major IT systems includes 18 of 19 IT systems and
projects for which OMB requested DOJ to submit Exhibits 300 in the
FY 2006 budget cycle.13

      Related to OMB’s evaluation of agency Exhibits 300 is OMB’s
Management Watchlist. OMB maintains this list to identify those
projects needing improvement in performance measures, Earned Value
Management, or system security. At the time we finalized this report
in March 2007, there were no DOJ IT systems on the OMB
Management Watchlist.

      In addition to monitoring IT capital plans using the Exhibits 300,
OMB has established requirements for the use of Earned Value
Management tools for certain DOJ IT systems and projects. These
requirements are designed to improve execution and performance of
all new major IT projects, ongoing major developmental projects, and
high-risk projects. DOJ’s OCIO staff provided us with a list of the 16
IT systems and projects with Earned Value Management tools that
have already been validated or are to be validated.14 All of these IT

       12
            For this list of IT systems and projects, see Appendix II, Table A.
       13
          The OIG did not include the Exhibit 300 for the FBI’s Special Technologies
and Applications Section (STAS) because it is an FBI subdivision that included
numerous IT projects and systems. For this list of IT systems and projects, see
Appendix II, Table B.
       14
            For this list of IT systems and projects, see Appendix II, Table C.

                                          -5-
systems and projects are included in our inventory of major DOJ IT
systems.

      OMB also maintains a list of high-risk IT systems that require
additional monitoring. This list is developed with the participation of
the agencies according to criteria that OMB established in an August
2005 memorandum. This memorandum required agencies to identify
IT systems as high risk if the system meets one or more of the
following criteria:

      •      The agency has not consistently demonstrated the ability to
             manage complex projects.

      •      There are exceptionally high development, operating, or
             maintenance costs, either in absolute terms or as a
             percentage of the agency’s total IT portfolio.

      •      The project is being undertaken to correct recognized
             deficiencies in the adequate performance of and essential
             mission program or function of the agency, a component of
             the agency, or another organization.

      •      Delay or failure would introduce for the first time
             unacceptable or inadequate performance or failure of an
             essential mission function of the agency, a component of the
             agency, or another organization.

      Eight of the nine DOJ IT projects on the OMB high-risk list are
included on our inventory of major DOJ IT systems.15 We excluded
one project – grants.gov because of its relatively small dollar
amount.16

      Department Investment Review Board (DIRB). The DIRB is a
group chaired by the Deputy Attorney General and vice-chaired by the
DOJ CIO. The DIRB also includes senior DOJ officials with IT and
financial management expertise. The stated purpose of the DIRB is to
provide DOJ-level oversight of major IT investments and ensure
component investments are aligned with DOJ’s IT strategy. One of the

      15
           For this list of IT systems and projects, see Appendix II, Table D.
      16
         Grants.gov is an interagency system managed by the Department of
Health and Human Services for on-line grant applications and grant fund
management through a common website.

                                         -6-
DIRB’s main functions is to hold the IT managers accountable for their
projects and ensure “return on investment” considerations are
paramount in governance decision-making.17 According to its charter,
the DIRB selects for oversight between 5 and 12 investments for
review in any year, and this oversight may continue for the life of the
project at the discretion of the Board Chair and Vice Chair. We met
with the DOJ Chief Systems’ Architect who is a member of the DIRB,
and obtained a list of 11 systems and projects the DIRB is monitoring.
All 11 of these systems and projects are included in our inventory of
major DOJ IT systems.18 However, the DIRB does not evaluate or
approve the methods used to determine, or test the validity of, the
cost data reported to it by the IT system managers.

       Office of the Chief Information Officer (OCIO). The OCIO is
required to develop and maintain DOJ’s IT strategy and establish an IT
architecture. The OCIO also is responsible for ensuring that the
activities of the components comply with DOJ’s strategy and
architecture. One of the management tools the OCIO uses to monitor
IT systems and projects is the OCIO Dashboard. The Dashboard
provides – on a monthly basis – the DOJ CIO, component CIOs, and
project managers with current status information on major and other
highly visible IT systems in DOJ’s IT Investment Portfolio. The
Dashboard attempts to track cost, schedule, performance, risk, and
other major issues for IT systems. Currently the OCIO is tracking 33
IT systems and projects with the Dashboard. Twenty-two of these 33
Dashboard projects and systems are included in our inventory of major
DOJ IT systems.19




       17
           “Return on investment” in this context means the quantitative benefits
that will be achieved through an investment in the IT system. Examples of these
benefits are systems’ savings, cost avoidance, and stakeholder benefits.
       18
            For this list of IT systems and projects, see Appendix II, Table E.
       19
            In order to focus our review on the largest systems, we included those
systems with a cumulative cost of $15 million and higher for FYs 2005 through 2007.
We also included four IT systems monitored by the OCIO Dashboard that do not
have 3-year costs exceeding $15 million because they met additional criteria. For
this list of IT projects and systems, see Appendix II, Table F.

                                          -7-
              FINDINGS AND RECOMMENDATIONS

       The OIG identified 38 major DOJ IT systems and collected cost
       and other information on these systems from DOJ components.
       DOJ components reported $5.7 billion in incurred costs for these
       systems through FY 2005 and estimated total costs of
       $15 billion through FY 2012. We determined that DOJ has
       fragmented and inconsistent systems and methodologies for
       reporting IT system costs and lacks the controls necessary to
       ensure accuracy and completeness. Also, DOJ’s financial
       systems are not designed to provide cost data on an individual
       IT-system basis and were therefore not useful as a source of
       cost data.

       We believe the lack of complete cost data that is verifiable for
       DOJ’s IT systems compromises the effectiveness of DOJ’s IT
       oversight entities, including Congress, OMB, the DIRB, and DOJ
       and component CIOs.

       Our audit work also included detailed testing of costs reported
       for a sample of the three IT systems in the FBI, DEA, and JMD –
       the three components responsible for the majority of DOJ’s IT
       spending. We determined that the $327.9 million in combined
       costs reported for these three systems was understated by at
       least $68 million.

Inventory of Major DOJ IT Systems and Related Costs

       We identified 38 IT systems operated by, or under development
in, 7 DOJ components as the inventory of major DOJ systems. The
FBI has the largest number of IT systems in the inventory with 21 –
clustered in the OCIO, Science and Technology Branch (STB), and
National Security Branch (NSB) and Security Division. The DEA has
seven systems on the list and JMD has six.20 Because these three
components make up nearly 90 percent of the total inventory, we
focused on their IT cost reporting practices in this audit.

     The following chart shows the distribution of all 38 major DOJ IT
systems and projects.


       20
           Although the Organized Crime Drug Enforcement (OCDETF) Fusion Center
is located within the Office of the Deputy Attorney General, for purposes of this audit
we included the Fusion Center IT system as part of the DEA. The DEA’s unobligated
funds developed the Fusion Center.
                                         -8-
                       Distribution of IT Inventory

                                      DEA, 7


          FBI- NSB , 5
                                                      JMD, 6   FBI-STB
                                                               FBI-CIO
                                                               FBI- NSB
                                                               DEA
                                                               JMD
          FBI-CIO, 5                              EOIR, 1
                                                               EOIR
                                                               OJP
                                                      OJP, 1
                                                               ATF
                                                               BOP
                                                      ATF, 1
          FBI-STB, 11
                                                      BOP, 1




     Source: OIG

      After an initial survey that included interviewing Department and
component IT and finance staff, we determined no component-level or
DOJ-wide systems collect data on individual IT system costs. To
obtain the best available data on the 38 major IT systems in the
inventory, we asked the managers of each system to provide us with
detailed cost and other information on the systems they manage.
System managers reported $5.7 billion in system costs through
FY 2005 and an additional $9.3 billion estimated through FY 2012, for
a total of $15 billion.

      The IT systems managers completed an OIG-developed
questionnaire, distributed through the DOJ CIO, that requested costs
and timeframes associated with each phase of the project’s system
development life cycle, total costs incurred through FY 2005, funding
amounts and funding sources necessary to complete the system,
contractor information, a brief description of the methods used to
determine reported costs, and other information required to respond
to the congressional request.

      Based on the responses to our questionnaire and additional
interviews of component IT staff, we confirmed that IT system cost
reporting across the Department is fragmented and inconsistent. The
methodologies used to track the costs of IT systems vary widely
among and within components, and there is a general lack of controls
necessary to ensure accuracy and completeness.


                                     -9-
                The primary objective of the OIG questionnaire was to obtain
          comparable cost data on all 38 major IT systems. The following table
          shows the detailed cost and the estimated funding required for the
          inventory of 38 major DOJ IT systems.

                      IT System Costs Reported on OIG Questionnaire

                                         To Date Costs         Funding           Total Costs
                                            through           Requests –          through
               System                     9/30/2005            FY 2012            FY 2012
FBI - Science and Technology Branch
    Integrated Automated Fingerprint
 1 Identification System             $ 1,515,162,000 $         812,008,000   $   2,327,170,000
    Next Generation Integrated
    Automated Fingerprint
 2 Identification System             $    14,094,000 $         438,726,000   $     452,820,000
    National Instant Criminal
 3 Background Check System           $   393,684,000 $         408,706,000   $     802,390,000
    National Crime Information
 4 Center                            $   315,404,000 $         162,276,000   $     477,680,000
    Law Enforcement Online Re-
 5 engineering/Relocate              $   114,536,000 $         237,989,000   $     352,525,000
    Law Enforcement National Data
 6 Exchange Rev 9/7                  $    25,235,000 $         195,242,000   $     220,477,000
 7 Combined DNA Index System         $     4,780,000 $          92,759,000   $      97,539,000
 8 Digital Collection                    $   200,150,000 $     205,530,000   $     405,680,000
   Electronic Surveillance Data
 9 Management System                     $    25,454,195 $     148,120,000   $     173,574,195
   Biometric Reciprocal Identification
   Gateway /CJIS Interoperability
10 Initiative                            $            -   $    346,662,000   $     346,662,000
   Computer Assisted Response
11 Team Storage Area Network             $    16,328,000 $      92,859,000   $     109,187,000
FBI - OCIO Branch
12 Sentinel                              $     4,300,000 $     433,667,000   $     437,967,000
13 Data Centers                          $   450,000,000 $     200,895,322   $     650,895,322
14 Technical Refresh Program             $    24,400,000 $     380,400,000   $     404,800,000
15 Investigative Data Warehouse          $    84,436,523 $     135,065,296   $     219,501,819
   Multi-Agency Information Sharing
16 Initiative Regional Data Exchange     $     7,957,843 $      10,000,000   $      17,957,843




                                             - 10 -
    FBI - National Security Branch and      Security Division
    17 Terrorist Screening Center            $    22,030,000     $   453,676,000   $    475,706,000
        Foreign Terrorist Tracking Task
    18 Force                                 $     82,046,000    $   142,900,000   $    224,946,000
        Security Management
    19 Information System                    $      3,633,190    $   76,993,000    $      80,626,190
        Information Assurance
    20 Technology Infusion                   $      2,554,379    $    5,300,000    $      7,854,379
        Sensitive Compartmented
    21 Information Operational Network       $     38,082,620    $   305,439,304   $    343,521,924
    DEA

    22 Model 204 Corporate Systems           $     334,556,000   $   96,159,860    $    430,715,860
        E-Commerce-Controlled
    23 Substances Ordering System            $    24,315,070     $    79,310,032   $     103,625,102
    24 EPIC Information Systems              $    63,821,000     $    71,830,108   $     135,651,108
    25 Concorde                              $    19,784,000     $    50,813,000   $      70,597,000
    26 Firebird                              $   639,533,346     $   551,397,000   $   1,190,930,346
    27 Merlin                                $    90,904,000     $   109,730,144   $     200,634,144
        Organized Crime & Drug
        Enforcement Task Force Fusion
    28 Center System                         $      3,524,487    $   140,331,409   $    143,855,896
    JMD
    29 Integrated Wireless Network           $     752,302,000   $ 1,818,096,000   $   2,570,398,000
        Unified Financial Management
    30 System                                $     25,580,973    $   403,062,668   $    428,643,641
        Litigation Case Management
    31 System                                $      3,500,000    $   99,563,360    $    103,063,360
        Classified Information Technology
    32 Program                               $              -    $   38,118,003    $      38,118,003
        Justice Consolidated Office
    33 Network                               $   193,567,064     $   270,078,542   $    463,645,606
    34 Public Key Infrastructure             $     9,511,265     $   157,900,000   $    167,411,265
    ATF
        National Integrated Ballistics
    35 Information Network                   $     125,000,000   $   122,000,000   $    247,000,000
    BOP
    36 Inmate Telephone System-II            $        361,693    $      205,095    $        566,788
    EOIR
    37 eWorld                                $     19,482,000    $   26,352,000    $      45,834,000
    OJP
    38 Grants Management System              $   77,753,000 $   23,702,000 $    101,455,000
    Totalsa                                  $5,727,763,649 $9,343,862,143 $15,071,625,792
Source: OIG analysis of completed questionnaires
a
    Due to rounding, values do not sum.
                                                   - 11 -
      After obtaining and analyzing the data provided by the individual
system managers, we attempted to verify costs associated with one IT
system from each of the three DOJ components (FBI, DEA, and JMD),
which collectively represent over 97 percent of all the IT spending in
our audit inventory.

      In the following sections of this report, we briefly discuss our
consideration of the Department’s IT Capital Planning and Investment
Control environment, budget, and financial systems in order to
complete our verification of the Department’s major IT inventory.

IT Capital Planning and Investment Control Environment

      Since FY 2001, Congress has authorized more than $12 billion
for DOJ IT equipment, software, and services – an average of more
than $2 billion annually.21 DOJ spending authority represents
approximately 4 percent of the $64 billion authorized on IT across the
federal government in FY 2007 and 11 percent of DOJ’s annual
budget.22 These funds are used to acquire new computers and other
assets as well as to cover expenses associated with operating and
maintaining legacy IT systems. Funding for new acquisitions and
improvements to existing IT is referred to as Development,
Modernization, and Enhancement (DME) costs, while operating
expenses are known as “steady state” costs. In FY 2005, DOJ
spending authority related to steady state activities amounting to
nearly $1.5 billion – more than double the $702 million allocated to
DME expenditures.

      More than 40 DOJ components or organizational units use IT
systems to assist DOJ’s 104,000 employees in the performance of their
duties and to provide support for the state and local law enforcement
community.

      In addition to the DOJ CIO, each major component has a CIO.23
Each of these components has either its own Capital Planning and
Investment Control (CPIC) policies and IT investment management
(ITIM) processes, or follows DOJ’s policies and processes. In prior
audit reports, the OIG reviewed the ITIM processes at three DOJ

      21
           DOJ IT spending authority for FY 2006 is an enacted amount.
      22
           The DOJ’s FY 2006 enacted budget is approximately $22 billion.
      23
         The DOJ CIO is organizationally located in JMD and serves as CIO for both
the DOJ and the JMD component.
                                       - 12 -
components – the FBI, DEA, and JMD – and found they are in the
beginning or middle stages of their ITIM processes.24

       Although the DOJ and component CIOs have important roles and
input to decision-making on IT matters, they often do not control the
budgets for the IT systems they are responsible for monitoring. DOJ
officials could not estimate what percentage of DOJ spending is
controlled by offices other than the OCIO, because each component
budgets its IT spending differently.

      Elements of an agency’s CPIC process include IT planning,
establishing an IT architecture, and monitoring the status of IT
systems. Although the DOJ CIO and component CIOs we reviewed
have significant responsibilities for their organization’s IT systems, we
found they also have varying degrees of control over those IT system
budgets.

     The Clinger-Cohen Act outlines the required content of an
agency’s CPIC process:

      •    provide for the selection of information technology
           investments to be made by the executive agency, the
           management of such investments, and the evaluation of the
           results of such investments;

      •    be integrated with the processes for making budget, financial,
           and program management decisions within the executive
           agency;

      •    include minimum criteria to be applied in considering whether
           to undertake a particular investment in information systems,
           including criteria related to the quantitatively expressed
           projected net, risk-adjusted return on investment and specific
           quantitative and qualitative criteria for comparing and
           prioritizing alternative information systems investment
           projects;

      •    provide for identifying information systems investments that
           would result in shared benefits or costs for other federal
           agencies or state or local governments;



      24
           See Appendix III for information on prior reports examining the DOJ’s ITIM
process.
                                       - 13 -
      •   provide for identifying for a proposed investment, quantifiable
          measurements for determining the net benefits and risks of
          the investment; and

      •   provide the means for senior management personnel of the
          executive agency to obtain timely information regarding the
          progress of an investment in an information system, including
          a system of milestones for measuring progress, on an
          independently verifiable basis, in terms of cost, capability of
          the system to meet specified requirements, timeliness, and
          quality.

      Because we had difficulty obtaining independently verifiable cost
data for the major IT systems in the inventory, we discussed with DOJ
OCIO staff whether the DOJ and its components are complying with
the Clinger-Cohen Act provision cited above.

      OCIO officials told us that to meet the Clinger-Cohen Act
requirements, they are now using Earned Value Management tools for
IT investments under development. Because OMB has only recently
required Earned Value Management for new IT investments, historical
cost data for these systems would not have been available to use for
this audit. Therefore, the Clinger-Cohen Act provisions would be met
only for new systems under development.

The IT Investment Portfolio

       A report known as the IT Investment Portfolio or Exhibit 53,
required by the Clinger-Cohen Act and the Paperwork Reduction Act of
1995, is designed to help OMB and other federal agencies provide a
full and accurate accounting of an agency’s IT investments. The
Exhibit 53 is a product of the IT CPIC and ITIM processes. As the
name suggests, the CPIC process should enable an agency to plan,
acquire, and manage its IT acquisitions. During the CPIC process, the
agency CIO is responsible for collecting and managing the data
necessary for the preparation of the IT Investment Portfolio.

      The IT Investment Portfolio is similar to the President’s Budget in
that each item in the IT Exhibit 53, whether a system, project, or
service, is reported with 3 years of associated spending. The 3 years
used in the Exhibit 53 are the budget year, the current year, and the
prior year. The spending reported for all years reflects the
appropriated amounts or budgetary resources available for that year.


                                  - 14 -
        The costs of individual IT systems are usually included in the
programs and activities of a component with other costs, including
those of other IT systems. These other costs are called object
classifications, or object classes.25 DOJ component CIOs do not
generally compile the actual cost data they report in the IT Investment
Portfolio because they rely on individual IT system managers to collect
and report cost data that the CIOs review before it is submitted to
OMB.

       To inform Congress of IT spending, OMB provides Congress with
an Exhibit 53 at the time it submits the President’s Budget. Both
DOJ’s budget and Exhibit 53 include IT spending but use different
formats to present the same appropriations – actual, enacted, and
proposed. Both of these documents may appear to be integrated, but
they are created for different purposes by separate offices and use
different databases to gather information.

       To collect and process most of the information needed to
prepare DOJ’s budget, OMB uses the MAX budget system.26 DOJ
enters its budget and financial data into the MAX system, which
organizes the data using a series of schedules, including the object
classification schedule.




       25
           Object classification is spending based on an item or service purchased by
the federal government. In this case, object classes break down total IT system
costs into smaller costs such as personnel compensation, equipment, and advisory or
assistance services.
       26
         The MAX Budget Information System is used to support the federal budget
process. OMB uses the MAX Budget Information System to collect, validate, analyze,
model, and publish budget information.

                                       - 15 -
       The following table from Circular A-11 shows how various IT
 obligations should be assigned to object classes:

         MAX Budget System Object Classes for IT Spending

                                          Object
                                           Class
    Description of Obligation             Number             Object Class Title
IT services or rental of IT                           Communications, utilities, and
equipment                                   23.3      miscellaneous charges
Operation and maintenance of IT                       Operation and maintenance of
systems by the private sector               25.7      equipment
Operation and maintenance of IT                       Purchases of goods and
systems by another Federal                            services from Government
Government Account                          25.3      Accounts
IT hardware and software                    31.0      Equipment
IT supplies and material such as
manuals, diskettes, and toner
cartridge                                   26.0      Supplies and materials
IT consulting for management,
studies, analyses, and evaluations,
or engineering and technical                          Advisory and assistance
services                                    25.1      services

Source: OMB MAX

       In addition to the instruction on how to assign different types of
 IT obligations to object classes, OMB directs agencies to include
 employee wages in the personnel compensation and benefits object
 class even when these employees are working to develop an IT
 system.27

       While the MAX budget system is used for the President’s Budget,
 OMB uses the Electronic Capital Planning and Investment Control
 (eCPIC) system, which is installed on agency intranets, to collect IT
 Investment Portfolio data. The eCPIC system is designed to manage
 and control IT spending and help prepare information requested by
 OMB. In addition to facilitating the preparation of the IT Investment
 Portfolio, the eCPIC system also contains the data used to prepare
 Exhibits 300 for individual IT systems.

        27
            OMB Circular A-11 states that the object classes present obligations
 according to their initial purpose, not the end product or service. For example, for a
 federal employee who constructs a building, the obligations for the employee’s
 wages should be classified under personnel compensation and benefits rather than
 acquisition of assets.
                                         - 16 -
      The following table summarizes the differences between DOJ-
related sections of the President’s Budget and the IT Investment
Portfolio.

              Comparison of the President’s Budget to the
                       IT Investment Portfolio

Cost Report           President’s Budget          IT Investment Portfolio

Scope                 All Spending                IT Spending Only
DOJ amounts in
FY 2005               $28 billion                 $2 billion
OMB system to
collect data          MAX                         eCPIC
Related agency                                    Capital Planning and
process               Budget Execution            Investment Control
Related
responsible
agency officer        Chief Financial Officer     Chief Information Officer
Related agency        Chief Financial Officer's
staff preparing       Budget and Finance
cost data             Staff                       Individual IT system owners
                                                  Various ad hoc methods and
                      Core Financial Systems      cost databases - no one
Related agency        capturing all agency        system capturing all agency
systems               transactions - audited      transactions - not audited

Source: OMB and DOJ documents

DOJ Core Financial Systems

      Core financial systems are used for the funds management
function of an agency. These systems should ensure that agency
financial transactions are captured and processed in a uniform and
consistent manner.

       Data from DOJ components’ core financial systems is put in a
format that defines all costs of individual IT systems. Without the
ability to identify and extract data in a useable format, it is
cumbersome and time consuming to identify the costs of these IT
systems. Therefore, auditing the costs of the 38 major IT systems in
                                    - 17 -
DOJ’s inventory would, in essence, require a detailed audit of each
system.

      In this review, we focused on the core financial systems
maintained by the FBI, DEA, and JMD. The FBI’s core financial
system, Federal Management System (FMS), is a legacy system dating
back to the 1980s. In general, FMS limits the FBI’s ability to process
financial information effectively and efficiently, including timely
financial statements.

       At the start of our audit, we discussed with FBI officials familiar
with FMS the possibility of extracting and summarizing cost data in
FMS for the individual IT systems in the inventory. These officials told
us that financial data in FMS is not coded in sufficient detail to allow
this kind of independent identification and grouping for all IT systems.

       We also met with DEA and JMD officials to determine whether
their respective financial systems – the Federal Financial System (FFS)
and Financial Management Information System (FMIS) – could be used
to identify or verify costs of individual IT systems. Although the FFS
and FMIS are newer systems and do not have the same degree of
limitations as the FBI’s FMS, neither system can easily produce reports
that identify all the costs associated with its components’ IT systems.

       Despite the age and weaknesses of these financial systems,
officials told us this financial data could have been more useful had
accounts been created and transactions consistently coded to track IT
systems as defined in the CPIC process. This did not occur because
the primary cost tracking concern of the components is related to the
overall budget and spending process rather than the CPIC process.
Additionally, cost reporting for CPIC purposes is not specifically
required by law for federal financial systems.28




      28
           The Office of Federal Financial Management’s Core Financial System
Requirements issued in January 2006 requires the following seven functions:
financial system management, general ledger management, funds management,
payment management, receivable management, cost management, and reporting.

                                    - 18 -
Verification of IT System Cost Data

      We selected three IT systems within the FBI, DEA, and JMD, –
LEO, Concorde, and JCON, respectively – based on the results of the
OIG-developed questionnaire. Within those three systems, we tested
the accuracy and completeness of the actual cost data reported. Due
to the lack of sufficient internal controls or any routine testing of the
accuracy of the costs reported, we assessed the risk as “high” that all
IT system costs may be understated. Accordingly, we planned our
work and focused on determining whether the costs reported by the IT
systems were complete. Testing for completeness without the ability
to sample transactions from the entire financial system is considerably
more difficult than simply confirming the reported costs exist.
Although we used component financial and budget system data to the
extent possible, there is no assurance that our work has identified all
the costs associated with these three IT systems.

FBI Law Enforcement Online

       Law Enforcement Online (LEO), which was formed through a
cooperative agreement between the FBI and Louisiana State University
(LSU), is the FBI’s Internet-based communication system and
information service for law enforcement agencies nationwide.
Thousands of police officers and other employees of local, state, and
federal law enforcement agencies are able to access LEO 24 hours a
day, 7 days a week.

      Examples of the services available to users of LEO include:

      •   E-mail – Provides the capability to send and receive messages
          electronically between LEO users.

      •   Topical Electronic Library – Provides an easily accessed
          repository of law enforcement publications, studies, research,
          and technical bulletins.

      •   Distance Learning – Provides online topical learning modules
          that can be used at any time of day or night at the user’s own
          pace with instructional feedback.




                                  - 19 -
       In response to our questionnaire, the FBI Criminal Justice
Information Services (CJIS) Financial Management Unit provided the
cost information.29

                                     LEO Costs
                                     ($ in millions)


     FY        Costs incurred          Estimated Funding              Total Costs
    Start      through FY 05            through FY 2012            Through FY 2012
     -- a       $          115           $            238           $             353

Source: OIG analysis of completed LEO questionnaire
a
    The FBI did not provide a LEO start date on its completed questionnaire.

      Although the LEO response did not indicate a start date, FBI and
LSU documents indicated the system was created in 1995 and
transferred from a FBI unit to CJIS in 1997.

       We met with CJIS Financial Management Unit officials to discuss
the source of the amounts reported in our questionnaire and their
methods for tracking actual costs. These officials told us the $115
million in costs through FY 2005 comprised personnel and non-
personnel costs, but no indirect costs. In addition, non-personnel
costs included costs associated with a cooperative agreement with
LSU. The following table presents the breakdown of actual LEO costs
through FY 2005.

                  LEO Reported Costs for FYs 1995-2005
                                     ($ in millions)


        Non-personnel
           Cooperative Agreement with LSU              $   52
           Other                                       $   33
        Total non-personnel                                       $     85
        Total personnel                                           $     30
        Total costs                                               $   115

       Source: CJIS documents




        29
          Established in 1992, CJIS serves as the focal point and central repository
of criminal justice information services at the FBI.
                                        - 20 -
      LEO’s direct, non-personnel requisitions are tracked in the CJIS
Budgetary and Evaluation and Reporting System (BEARS) database.30
However, the CJIS Financial Management Unit does not use BEARS to
report LEO’s costs for CPIC purposes. Instead, officials use electronic
spreadsheets primarily for budget monitoring. CJIS Financial
Management Unit officials provided us with copies of these electronic
spreadsheets and demonstrated how they sorted the data to calculate
the direct, non-personnel amount included on our questionnaire. This
amount, $85 million, comprises 74 percent of the total LEO costs
reported through FY 2005.

       Not all of the LEO-related expenditures reported were incurred
by CJIS, since LEO was under different management until 1997. Since
that time, other FBI divisions have participated with funding and
managing LEO activities.

      At the time CJIS Financial Management Unit officials provided us
the LEO cost spreadsheets, they identified an error in their original
response. As a result, the amount related to LSU was increased from
$52 million to $74 million. However, this restatement did not change
the overall reported costs of $115 million or the percent of direct, non-
personnel costs described above.

      To test the completeness of the reported LEO costs, we
compared the values in the CJIS electronic spreadsheets to a number
of sources. First, we tested the completeness of the LEO requisitions
in the CJIS spreadsheets with the LEO requisitions in the BEARS
database. Because BEARS was not in use until 2002, we did not
expect the LEO requisitions in BEARS to contain all of the CJIS
requisitions contained in the LEO spreadsheets. We did expect that all
of the LEO requisitions coded in BEARS to be present in the CJIS
electronic spreadsheets. Our review of the 86 LEO requisitions in
BEARS showed, however, that 10 requisitions were not included in the
CJIS spreadsheets. The invoiced amounts associated with these 10
requisitions were less than 1 percent of the total invoiced amount in
BEARS of $41 million. The following table shows the requisitions
related to LEO in BEARS.




       30
           BEARS is a stand-alone system used to track requisitions more easily and
in greater detail than is possible using the FBI’s core financial system, FMS.
                                      - 21 -
             LEO-Related Requisitions CJIS BEARS Database

                                                    Invoiced Amounts
                               Number of             Associated with
       Requisitions           Requisitions             Requisitions
   Included in the CJIS
   spreadsheets                      76                       $   40,635,330
   Not included in the
   CJIS spreadsheets                 10                       $     274,001
   Total                             86                       $ 40,909,331

  Source: CJIS Financial Management Unit

      We asked the CJIS Financial Management Unit to explain why all
86 requisitions were not included in its spreadsheets, and were told
that 9 of the 10 requisitions totaling $150,421 in invoiced amounts
related to office furniture and office equipment supporting the LEO
program, but were not part of the LEO IT infrastructure.

      CJIS Financial Management Unit officials told us the last
requisition related to LEO – $123,580 paid to an FBI contractor –
should have been captured in spreadsheets and included in the costs
reported for CPIC purposes. Officials also told us the expenditure
related to this requisition was paid from CJIS funding not designated
for the LEO project, which explains why it was incorrectly excluded.

       We next obtained a listing from FMS of all payments made to
LSU since October 1999.31 This listing contained 387 payments
totaling $45,813,271. With the help of the CJIS Financial Management
Unit staff, we attempted to reconcile the payments from FMS with the
requisitions contained in the LEO spreadsheets. The reconciliation
proved to be difficult because the CJIS spreadsheets track requisitions
and FMS data is based on payments. Because one requisition may
result in a number of payments, we did not independently research
each of the hundreds of payments.

      However, from a limited review of some of the FMS-listed
payments, we identified five requisitions related to LEO totaling
$850,000 that were not included in the CJIS cost spreadsheets.
Although our review was limited, it clearly demonstrates that not all



      31
         FMS data prior to FY 2000 has been archived and retrieving this data took
more time than our analysis permitted.
                                      - 22 -
 LEO-related costs have been captured by CJIS or reported in the OIG
 questionnaire.

       We contacted LSU to collect any information it maintained on
 LEO to compare the costs provided by the FBI. The LEO Director at
 LSU provided this data and informed us of other activities related to
 LEO that the FBI has funded. LEO activities funded by the FBI include
 the InfraGuard, the Hostage Barricade System (HOBAS) and Bomb
 Data Center (BDC), the National Center for Missing and Exploited
 Children (NCMEC), the Katrina Fraud Task Force (KFTF), and the Law
 Enforcement Linguistic Access (LELA) system at LSU.32

        We grouped the requisitions contained in the CJIS spreadsheets
 by their descriptions to compare them to the amounts provided by LSU
 as follows.

                Comparison of LSU and CJIS Cost Data Related to
                  Contracted Activities FYs 1995 through 2005

                                                        CJIS
         Activity               LSU Amount             Amount            Difference
Cooperative Agreement          $ 72,716,134 $ 62,349,855                $ 10,366,279
InfraGuard                     $ 9,282,571 $ 7,850,850                  $   1,431,721
HOBAS and BDC                  $ 1,710,086 $    854,926                 $    855,160
NCMEC                          $ 1,273,169 $ 1,195,916                  $      77,253
KFTF                           $    639,745 $   -                       $     639,745
LELA                           $    316,594 $   163,572                 $     153,022
Total                          $ 85,938,299 $72,415,119                 $ 13,523,180

Source: OIG analysis

       Similar to the difficulty we had comparing the amounts in FMS
 based on payments to the amounts in the CJIS spreadsheets based on
 requisitions, LSU’s costs are based on amounts invoiced to the FBI.

        We asked the CJIS Financial Management Unit to explain the
 differences in the two sets of costs. Although officials pointed to the
 possibility of timing differences between the CJIS and LSU data, they
 acknowledged timing issues alone cannot explain these significant
 differences. Instead, CJIS Financial Management Unit officials told us
 the bulk of these differences appear to be attributable to transactions

        32
             See Appendix V for more information on these activities.
                                         - 23 -
with LSU made by other FBI components, not by CJIS. Although CJIS
manages LEO and all CJIS requisitions are included in the CJIS BEARS
database, funding for LEO projects can come from outside CJIS. The
spreadsheets maintained by CJIS included amounts for LEO related to
non-CJIS FBI components, but the CJIS Financial Management Unit
can only track non-CJIS requisitions and payments when informed of
them. We did not attempt to reconcile the LSU and CJIS amounts
because CJIS officials did not believe the differences could be
reconciled.

      To calculate the FTE costs for LEO, CJIS Financial Management
Unit staff obtains data from the Bureau Personnel Management
System.33 The Human Resources Division uses the Bureau Personnel
Management System to capture and manage data on FBI personnel.
The Bureau Personnel Management System tracks FBI employee
information including salary information and the cost code to which
they are assigned.34 CJIS officials told us that employees working with
LEO are assigned one of three different codes. One of these codes
includes employees assigned to LEO as well as another FBI IT system.
After checking with administrative staff working for the LEO program,
CJIS Financial Management Unit staff adjusted the list of employees to
include only those working on LEO. The salaries of those employees
determined to be working on LEO is then totaled.

      For FY 2005, the FBI salaries related to LEO amounted to
$2,323,795. To this amount the CJIS Financial Management Unit
applied the fringe benefit rate of 32.8 percent prescribed by OMB, and
the resulting total amount of LEO FTE costs for FY 2005 was reported
as $3,086,000.

      To test these FTE costs, we reviewed the Bureau Personnel
Management System’s current listing of employees and their salaries
for the three cost codes related to LEO. According to the Bureau
Personnel Management System, there are 34 employees assigned to
the three LEO-related cost codes with a combined salary of
$2,502,314.
      33
           The CJIS Financial Management Unit staff uses Bureau Personnel
Management System data and follows the method described above for LEO and other
projects they consider small. Larger CJIS projects, such as the Integrated
Automated Fingerprint Identification System, use an Activity Based Cost model.
After the number of FTEs is identified, personnel cost rates provided by the FBI’s
Finance Division are used to calculate total personnel costs.
      34
         The cost codes used by the Bureau Personnel Management System are the
same used by FMS.
                                     - 24 -
       Although the current combined salary amount in the Bureau
Personnel Management System for the three cost codes is 8 percent
higher than the reported LEO amount in FY 2005, we do not believe
this, by itself, indicates reported costs are understated. Instead, the
relatively small difference may be attributable to the following causes:

            •   Current salary amounts likely include employees not
                assigned to LEO;

            •   Staffing changes since FY 2005 would result in changes in
                salaries; or

            •   Increases in salaries would extend across the government.

      In addition to our analysis using the Bureau Personnel
Management System, we asked the LEO Director at LSU to provide the
number of FBI employees working on LEO. She estimated that during
FY 2005, approximately 30 FBI employees worked full time on LEO-
related tasks.

      Finally, as shown in the following table, we compared the costs
reported for LEO in the CJIS Financial Management Unit spreadsheets
with the outlays for LEO in OMB’s eCPIC database.

                        LEO PMO and eCPIC Cost Data
                              FYs 1995 - 2005
                                     ($ in millions)

                           Amounts Per           Amounts Per
           Costs              PMO                   eCPIC       Difference
      Non-personnela       $        85            $       101   $       15
      FTE costs            $        30            $        30        -
      Totala               $       115            $      130    $       15

  Source: CJIS and DOJ documents
  a
      Due to rounding, not all values sum.

      As shown in the table above, FTE costs were the same in both
the CJIS spreadsheets and eCPIC database. However, the non-
personnel amount in eCPIC was nearly $15 million more than the
amount in the CJIS spreadsheets. We discussed this difference in
reported non-personnel costs with the FBI CIO official responsible for

                                        - 25 -
entering the data in eCPIC.35 The official confirmed that the CIO’s
records showing the same amounts reported by CJIS and the eCPIC
non-personnel amount was incorrect. The official explained that the
eCPIC value is incorrect because the FBI did not update prior year
outlays for LEO and some other FBI IT systems during the last budget
cycle. The FBI updated the prior year outlays for only those 16
systems it considers major systems. The official also explained that
prior year costs for LEO and many other systems were not updated in
eCPIC because of the CIO’s limited staff and resources.

       In summary, the CJIS Financial Management Unit maintains
records that provide reasonable assurance that the amounts reported
in the OIG questionnaire can be verified. However, we determined
these records do not capture all FBI costs related to LEO. From FMS
payment data and LSU records, we determined the FBI investment in
the LEO project could be as much as $13 million more than the $115
million reported.

DEA Concorde

       Concorde is a DEA IT system designed to integrate DEA’s IT
functions, improve business processes, and enable information sharing
within the component. It is intended to allow Special Agents,
Intelligence Analysts, and other investigative professionals to manage
investigative case files digitally. The central feature of the Concorde
system is the Investigative Management Program and Case Tracking
System (IMPACT), a web-based case management system.

      The DEA’s response to our request for Concorde cost information
showed that the program began in 2000, with related costs through
FY 2005 totaling $19.8 million. The DEA also reported government
FTE costs amounting to $3.7 million, with five contractors individually
paid at least $1.3 million over this same period. The following table
presents a selection of the cost data DEA initially provided.




       35
            Although eCPIC is accessible from most federal agencies’ intranet systems,
this is not the case at the FBI. Instead, the FBI’s CIO Investment Management Unit
collects and enters the data for the individual IT systems into eCPIC.

                                       - 26 -
             Concorde Reported Costs FYs 2000-2005
                                 ($ in millions)

            Costs associated with 5 largest
            contractors                                   $   13.1
            Personnel - DEA FTEs                          $    3.7
            Other contracted costs                        $    3.0
            Total Costs                                   $   19.8

          Source: OIG analysis of completed Concorde questionnaire

      We met with DEA officials to review their cost-tracking methods
and supporting documentation, and analyzed the cost information
provided. After we requested that DEA ensure the cost data extended
back to the beginning of the Concorde project, DEA officials provided
information noting that the program was conceived in 1997 with the
name “UMBRELLA.” DEA officials told us the goals of UMBRELLA were
the same as Concorde and only the name had changed.

      DEA officials also provided us with copies of the PMO electronic
spreadsheets they used to track Concorde’s contracts and related
invoices since FY 2000. The following table presents Concorde’s
contract-related expenditures between FYs 2000 through 2005.

                          Concorde Contract Invoices
                               FYs 2000 - 2005

                      Fiscal Year             Amount
                         2000             $       947,510
                         2001             $     1,891,135
                         2002             $     3,729,187
                         2003             $     3,698,410
                         2004             $     4,843,233
                         2005             $       741,749
                    Totala                $   15,851,226

                 Source: Concorde invoice detail
                a
                    Due to rounding, values do not sum.

       Although we previously determined that the DEA’s financial
system, the FFS, is not organized in such a way to easily and reliably
identify all the costs associated with any particular IT system, DEA
                                     - 27 -
finance staff told us a unique code to track funding for Concorde was
created in FY 2005. Prior to 2005, Concorde did not have a defined
allocation within the DEA’s budget.

       DEA finance staff provided us with an FFS report that captured
all activity associated with the Concorde fund code in FYs 2005 and
2006. To the extent possible, we tested the completeness of the
Concorde PMO spreadsheets by using this FFS report. Although the
report tracks the use of Concorde funding allotment within the DEA
budget, it does not necessarily capture all costs related to Concorde.
From the PMO spreadsheets, we identified costs related to Concorde
that were funded from DEA sources other than the Concorde budget
allotment. DEA officials told us these other sources funded Concorde
as well a number of other projects.

      The following table presents the amounts in FFS related to
Concorde funding for operations and equipment during FYs 2005 and
2006.

   Amounts Expended from Concorde Funding in DEA Budget
                              ($ in millions)


     Fiscal Year     Operations        Equipment         Total
    2005                $ 4.379           $     0         $ 4.379
    2006                $ 1.870           $ 0.068         $ 1.938
    Total               $ 6.249           $ 0.068         $ 6.317

    Source: DEA

      We analyzed the detail of the FFS amounts above and compared
them with the PMO spreadsheets. From this analysis, we identified 19
task orders with invoiced amounts of $717,581 that were not included
in the PMO spreadsheets. We determined that 13 task orders totaling
$15,027 were for relatively small DEA travel and credit card
expenditures. These amounts were not included in the reported costs
because the PMO spreadsheets include only contracted activity.
However, the remaining $702,555 in expenditures were related to
Concorde contracts and should have been included in the PMO
spreadsheets. DEA officials told us the incomplete project
management cost data may have resulted from the accounting
treatment for Concorde’s software, which requires such costs to
be reported as an asset in DEA’s financial statement throughout the
development phase rather than as an expense.

                                 - 28 -
      We considered testing the completeness of the $13.095 million
associated with Concorde’s major contractors by obtaining payments
to these contractors from FFS. However, DEA finance staff informed
us that these particular contractors performed a large volume of
services for the DEA, of which Concorde is only a relatively small
portion. DEA staff said they could not readily identify those payments
specific to Concorde.

       We next evaluated the government FTE costs of $3.7 million
reported by DEA in our questionnaire. This amount reflects all DEA
personnel costs since FY 2000 and translates to approximately five
FTEs per year. DEA officials provided us with a spreadsheet used to
estimate Concorde FTE costs. This spreadsheet included estimates for
FYs 2003 through 2020. Total estimates are calculated by identifying
the number of FTEs in each of eight job categories and multiplying this
number by the amounts for salaries and benefits related to each
category. In addition to salary and benefits, the FTE spreadsheets
include estimated amounts for other DEA employee expenses, such as
training and travel. The following table presents the Concorde FTE
cost data from FYs 2003 to 2005.

                         Concorde FTE Cost Data
                            FYs 2003 - 2005

  Fiscal      Number        Salary &      Other FTE
  Year        of FTEs       Benefits      Expenses          Total
  2003             4.8      $   93,218     $   24,032      $ 562,800
  2004             5.3      $   93,218     $   24,032      $ 619,080
  2005             5.0      $   97,040      $     24,032   $ 610,202
 Annual
 Average           5.0                                     $   597,361

Source: DEA

      The DEA did not have this type of information available for any
years prior to FY 2003. However, we used the average annual FTE
costs from the table above to estimate the FTE costs from FYs 2000
through 2005. The total FTE costs we estimated – $3,584,165 – is only
3 percent less than the FTE costs of $3,703,000 the DEA reported.

      Although this analysis suggests that the FTE costs reported by
the DEA for Concorde are supportable, these amounts are not based
on actual results. DEA officials told us they have no procedures for

                                 - 29 -
tracking the time employees spend working on any particular project
and the FTE costs are essentially estimates. In addition, the DEA does
not have a time utilization tracking system that would identify the
actual time spent on Concorde-related activities for all job categories.

      Because the Concorde program began in 1997 and the earliest
cost data we reviewed was for FY 2000, we asked DEA officials to
provide any additional spreadsheets or cost data they could identify
with this data. Officials provided us with past IT spending plans for
FYs 1998 and 1999 showing Concorde total obligated costs of
$770,000.36

     Finally, we obtained from DOJ’s OCIO the reported amounts for
Concorde contained in OMB’s eCPIC database. The following table
compares these amounts with the amounts contained in the PMO
spreadsheets already discussed.

                 Concorde PMO and eCPIC Cost Data
                Excluding Government Personnel Costs
                           FYs 2000 – 2005
                                  ($ in thousands)

     Fiscal        Amounts per          Amounts per
      Year           PMO                  eCPIC                Difference
      2000            $    948                           -         $    948
      2001            $ 1,891                            -         $ 1,891
      2002            $ 3,729                  $  5,730            $ 2,001
      2003            $ 3,698                  $  5,634            $ 1,936
      2004            $ 4,843                  $  3,576            $ 1,267
      2005            $    742                 $  5,634            $ 4,892
    Total             $ 15,851                 $ 20,574            $ 4,723

    Source: DEA and DOJ officials

      We asked DEA officials to explain the significant differences
between these two amounts’ sources. Although the eCPIC data
appears to represent prior years actual outlays, the DEA official
responsible for entering IT system data into eCPIC told us this is not
the case. He explained that budget estimate amounts from the start
of the year are often used to report the outlays at the end of the year.

       36
           The FY 1998 IT spending plan includes FY 1997 obligations for Concorde.
The total obligated costs of $770,000 reflects FYs 1997 through 1999.
                                      - 30 -
The DEA does not routinely report actual amounts for prior year
outlays because they view eCPIC as a planning tool, where the
emphasis is placed on estimated future amounts, not costs previously
incurred.

       In summary, the Concorde costs we reviewed did not include all
program costs since inception. We identified approximately $700,000
in software–related expenditures missing from project cost sheets, and
another $770,000 of expenditures from the first 2 years of program
that were not reported. In addition, Concorde’s actual reported FTE
costs are estimated at the beginning of each year. In our view, the
true costs of Concorde should include all costs incurred since 1997
when Concorde began.

JMD Justice Consolidated Office Network

       JMD’s Justice Consolidated Office Network (JCON) is the common
office automation platform that over 70,000 employees from 16 DOJ
components use daily. JCON provides the IT tools and services that
allow these employees to perform their computer-based work duties.37
Specifically, the JCON provides the basic IT computing framework for
DOJ, which includes hardware such as networked workstations and
printers, and applications such as e-mail and word processing. JCON
also provides the infrastructure for components to access other IT
systems such as case management databases and DOJ’s Financial
Management Information System.

      The JCON program is a partnership between the program
management office (PMO) and the 16 DOJ components that rely on
JCON. In this partnership, the PMO is responsible for funding and
implementing all aspects of JCON planning and deployments, including
acquiring hardware and software for the related components. The
components themselves are responsible for and fund the operations
and maintenance of these assets.

      In response to our questionnaire, JCON PMO officials provided
the cost information presented in the following table.




      37
         The amounts discussed below represent JCON Planning and Acquisition
only. JCON maintenance is funded by the 16 participating DOJ components.

                                    - 31 -
                                JCON Costs
                                ($ in millions)

   FY       Costs incurred          Estimated Funding     Total Costs
  Start    through FY 2005           through FY 2009   FY 2001 - FY 2009
  2002         $     193.567           $       270.079    $       463.646
Source: OIG analysis of completed JCON questionnaire

      The JCON response also included the following information:

      •    Costs related to a single contractor account for $49,626,912
           of the $193.6 million in costs incurred through FY 2005.

      •    Reported costs do not include the components operation and
           maintenance costs.

      •    Reported costs are associated with the “current standard
           architecture,” called JCON IIA.

      •    Forecasts of funding requirements past FY 2009 have not
           yet been developed.

       We requested the amounts paid to BAE Systems, the single
largest contractor that provides full life cycle support services for
JCON, so we could verify these costs from a source independent of the
PMO. Using the BAE’s tax identification number, we requested a listing
of all payments made to the contractor from the JMD Finance staff.
From a listing of payments made containing over 1,400 transactions
totaling more than $149 million, we identified 504 payments related to
JCON between FYs 2002 and 2005 totaling $49,537,777. The
difference between the value we calculated and the value reported by
JCON is $89,135, or less than 1 percent of the reported costs.

      We met with JCON PMO staff to discuss the potential for using
financial system and budget execution data to verify the remaining
reported costs through FY 2005. We previously determined the
various DOJ financial systems would not be able to identify the costs
associated with all of the IT systems in the inventory. We discussed
financial issues further with the JCON PMO and learned it would be
possible in this case to create a report from the financial system that
could identify planning and acquisition-related costs for JCON. The
JCON PMO then prepared a JMD financial system (FMIS) report that

                                    - 32 -
matched the $193.567 million it reported on our questionnaire. JCON
officials told us this amount included the government FTE costs
incurred over the period.

       From our discussions with the JCON PMO, we also learned that
in FYs 2004 and 2005, JCON planning and acquisition costs were
funded entirely from the Legal Activities Office Automation
appropriation. Because JCON planning and acquisition in the CPIC
process was essentially the same as the Legal Activities Office
Automation appropriation in the budget process, we compared the
costs from these two processes. First, we matched the FY 2005
Exhibit 53 amount for JCON of $39.967 million with the $40 million
reported for the Legal Activities Office Automation appropriation. Both
these amounts reflect the budget authority. We then compared the
amount of outlays for planning and acquisition in the Exhibit 300 with
the same amount reported for the Legal Activities Office Automation
appropriation in FY 2005. The Exhibit 300 reported about $49 million
in outlays for FY 2005, while the President’s Budget included outlays of
$43 million for the same period – a difference of over $6 million.

       We asked JCON officials about this discrepancy, and were told
the $49 million included in the Exhibit 300 represented appropriations
instead of outlays. We confirmed that the President’s Budget reported
$49 million for obligations in FY 2005 and asked JCON officials why
outlays were not provided as required by OMB Circular A-11. JCON
officials explained that they began reporting obligations because it was
difficult to retrieve data on outlays from the previous version of the
FMIS. To be consistent and avoid reporting the same cost twice, the
JCON PMO continued reporting obligations rather than outlays.

      In addition to the comparison of FY 2005 CPIC and budget data,
we compared the $246 million total amount reported in the JCON
Exhibit 300 for planning and acquisition to the $193.6 million total
amount reported in the OIG questionnaire. JCON officials told us total
costs in the Exhibit 300 costs were $53 million more than total costs
reported to the OIG because the Exhibit 300 included expenditures
from FY 2000 and 2001 and were not considered part of JCON IIA.

      We researched government and industry sources for more
information on JCON and JCON contracts. This search identified a
$500 million JCON contract awarded in 1996, more than 5 years
before the first costs reported in our questionnaire. Although the
JCON PMO response made clear that the reported costs related to
JCON IIA, we consider the JCON initiative to have begun in 1996 when
                                 - 33 -
the decision was made to replace a collection of separate office
automation systems with a consolidated DOJ platform.

        The JCON PMO confirmed that the first attempt at replacing the
existing office automation systems, known as JCON I, began in 1996
and was terminated in 1998 when it did not work. JCON II followed
and evolved into JCON IIA by FY 2002. Because the earlier JCON
efforts predate the current JCON Project Manager and other staff, they
were not able to provide us with the complete costs of JCON prior to
FY 2002.

       Although JCON has not yet developed cost estimates for FYs
2010 through 2012, the JIST Budget Officer told us that funding in
these years is expected to equal at least the FY 2009 level of $89.5
million.

       In summary, by using financial system and budget data we were
able to verify the costs the JCON Project Management Office reported
to us. However, the Project Management Office said the costs only
represent the current standard architecture. Although JMD views the
various versions of JCON as separate systems, we believe the true cost
of JCON should include all costs incurred since 1996 when the JCON
project was initiated. Therefore, we conclude that JCON’s costs since
1996 should be at least $53 million more than the $193.6 million we
verified. In addition, because complete cost data was not available for
JCON prior to FY 2002, we were unable to determine what amounts, if
any, were paid in connection with the 1996 $500 million contract.

CIOs’ Role in IT Spending and Budgeting

      Although the DOJ CIO and component CIOs have significant
responsibilities for their organization’s IT systems, we found they have
varying degrees of control over IT system budgets.

CIOs Control of IT Spending

      In testing the completeness of reported costs for selected IT
systems, we found that the control of IT spending and budgets by
component CIOs varies. The FBI CIO’s control over IT spending has
increased over the last few years. In 2004, the FBI reported in its first
IT Strategic Plan that its CPIC process and IT spending were not




                                 - 34 -
centrally managed. However, the budget for the CIO now includes
nearly 50 percent of the FBI’s IT spending, and the CIO also has
approval authority for IT spending not within the CIO’s budget. This
change since 2004 indicates more centralized management of the
FBI’s IT budget within the CIO’s office.

      At the DEA, the CIO controls approximately 60 percent of the
agency’s budgets relating to IT spending, and other DEA managers
control the remainder. To help oversee DEA IT projects, the DEA CIO
has created an Integrated Project Review process that allows the CIO
to:

     •   conduct oversight of IT projects’ progress toward costs and
         schedule milestones;

     •   evaluate IT system project managers;

     •   identify, as early as possible, cost, schedule, and performance
         slippages using Earned Value Management where
         appropriate;

     •   allocate limited CIO budget resources; and

     •   identify and share cross-cutting solutions, lessons learned,
         and common concerns.

        While the Integrated Project Review is used for IT systems
utilizing CIO funding, the Major Investment Review is used for any
major DEA IT system using DEA funds or personnel. The objectives of
the Major Investment Review are similar to those for the Investment
Project Review.

      At JMD, the creation of the JIST appropriation has given the CIO
budget control over five of the six JMD IT systems in our inventory.
Based on our discussion with the JIST Budget Officer, the CIO should
have reliable cost data in future years.

Costs of DOJ IT Systems Contained in OMB eCPIC Database

      Although the CIOs at the FBI, DEA, and JMD control the budgets
of many IT systems, employ tools that monitor current spending, and
review future year spending requests, we found the CIOs are generally
unable to identify or verify all prior costs related to individual IT
systems.
                                 - 35 -
       As part of our testing during this audit, we examined the prior
years’ cost data contained in the OMB eCPIC database. OMB uses
eCPIC to collect cost and other data on individual IT systems. Of
particular interest for this audit were the amounts contained in eCPIC
for prior year outlays of the three IT systems we tested. In all three
cases, we found the eCPIC prior year amounts were different from the
amounts we tested in the OIG questionnaire, which indicates the
eCPIC costs are inaccurate.

      At the three components, we discussed with IT system project
managers and CIO staff the differences between the eCPIC and
questionnaire data. For each component, we determined a different
cause behind these cost differences. In our view, it is critical for the
adequate oversight of DOJ IT systems and projects that complete and
accurate cost data be available on an individual system basis.

        At the FBI, we determined that the CIO had stopped updating
the prior year outlays for some IT systems, including LEO. For the
DEA, we determined the CIO staff had not entered the actual outlay
amount but instead used budgeted amounts. For JCON, we
determined the difference in prior year questionnaire data related to
the PMO’s use of obligations rather than outlay data. In addition, we
found that total costs extended 2 years further back than the data we
initially were provided.

       We also learned that each of the CIO staffs do not have a formal
verification process of the prior year amounts reported by the PMOs
for inclusion to eCPIC. OMB’s eCPIC is also used by DOJ’s OCIO to
prepare the Exhibit 53.

       Consistent with the President’s Budget, the Exhibit 53 shows the
appropriated amounts associated with individual DOJ IT systems.38
The Exhibit 53, in effect, extracts and provides detail on amounts for
IT spending already included in an agency’s overall budget. According
to OMB Circular A-11, an agency’s Exhibit 53 must be fully integrated
with that agency’s overall budget submission. In addition, agencies
must update each Exhibit 53 and the accompanying Exhibits 300 to
reflect any changes due to final budget decisions.




      38
          DOJ’s Exhibit 53 summarizes office automation and infrastructure IT
systems in the Consolidated Enterprise Infrastructure.
                                      - 36 -
      We discussed with officials at the JMD OCIO the extent to which
the Exhibit 53 amounts could be traced to the component’s overall
budgets and financial systems. These officials told us the two
documents are not completely integrated, but the OCIO is working
with DOJ budget staff and the components on this issue.

Other Congressional Requests for IT System Costs

      During our audit, the Subcommittee on Federal Financial
Management, Government Information, Federal Services, and
International Security of the Senate Committee on Homeland Security
and Governmental Affairs held hearings on federal IT projects at risk.
Following this hearing, the Subcommittee asked all major federal
agencies to list all of their on-going IT projects and whether they had
experienced cost overruns. In response to this request, DOJ provided
data on its IT systems, including the three IT systems we tested –
LEO, Concorde, and JCON. The following table compares the
responses to our questionnaire and the responses to the
Subcommittee’s request.

           DOJ Responses to IT System Cost Inquiries
           Made by Senate Subcommittee and the OIG
                               ($ in millions)

                             Senate
                        Subcommittee’s                OIG
                            Request              Questionnaire
         IT System       as of 10/2006           as of 9/2005

        LEO                              N/A             $   114.5

        Concorde                    $   25.1             $    19.8

        JCON                        $   65.3             $   193.6

       Source: Senate Subcommittee’s request and OIG questionnaire

      Although we did not expect the amounts reported to the Senate
Subcommittee and the OIG to exactly match due to the difference in
reporting dates, the amounts for LEO and JCON did not appear to be
consistent.

     The FBI included a comment in the response to the Senate
Subcommittee indicating that LEO is not an ongoing project, and FY
2006 development, modernization, and enhancement DME funds were
                                  - 37 -
used for tactical enhancements only. We discussed this issue further
with LEO and other FBI officials. They told us their initial response was
made in error, and said they subsequently amended the response to
be consistent with the information provided to us.

      Although the amounts reported by the DEA for Concorde
appeared consistent, the DEA indicated to the Senate Subcommittee
that Concorde began in 1998, while we were initially provided cost
data only as far back as 2000. Subsequently, the DEA confirmed a
1997 start date and provided us with the cost data for the years
omitted from their initial response to us.

       We discussed the difference in the JCON amounts with JMD
officials, who told us the amounts reported to the Senate
Subcommittee were taken from Earned Value Management data on the
current baseline and included JMD as well as the component’s share of
JCON costs.

Conclusion

       We concluded that the actual costs of DOJ IT systems that are
provided to Congress, OMB, and senior management within DOJ,
including the CIO, are unreliable. IT system cost reporting within DOJ
is fragmented, uses inconsistent methodologies, and lacks control
procedures necessary to ensure that cost data for IT systems is
accurate and complete. Furthermore, DOJ does not have complete
cost data for the three IT systems we tested and, based on our testing
and other audit work, we lack confidence in the cost data reported for
DOJ IT systems in general. We determined that the $327.9 million
combined costs reported for these three systems was understated by
at least $68 million. In our opinion, the lack of complete cost data
that is verifiable for DOJ’s IT systems compromises the effectiveness
of DOJ’s IT oversight entities, including Congress, OMB, the DIRB, and
DOJ and component CIOs.

        Although the primary purpose of DOJ’s CPIC processes is IT
planning and less emphasis is placed on prior years’ costs, we believe
it is important that the cost data used by decision-makers is reliable.
Our audit casts doubt on the reliability of the data that DOJ
components report to the CIO, the DIRB, OMB, Congress, and other
oversight entities.




                                 - 38 -
Recommendations

     We recommend that the Assistant Attorney General for
Administration:

  1. Ensure that component CIOs develop and implement cost
     effective means to report accurate, complete, and verifiable
     costs for individual IT systems.

  2. Ensure that DOJ’s CIO improves the integration of the Exhibit 53
     and budget submissions in accordance with OMB Circular A-11 so
     that Exhibit 53 amounts can be traced to the components’
     overall budgets and financial systems.

  3. Assess the feasibility of using the DOJ’s planned Unified Financial
     Management System for Capital Planning and Investment
     Control cost reporting.




                                - 39 -
 Statement on Compliance with Laws and Regulations

      In response to the conference report for the FY 2006 Science,
State, Justice, Commerce, and Related Agencies Appropriations Act
(P.L. 109-108), we audited information concerning DOJ’s major IT
systems. The audit was conducted in accordance with the Government
Auditing Standards. As required by the standards, we reviewed
management processes and records to obtain reasonable assurance
that DOJ’s compliance with laws and regulations that could have a
material effect on DOJ operations. Compliance with laws and
regulations applicable to DOJ’s IT systems is the responsibility of DOJ’s
Office of Chief Information Officer management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in:

      •   Clinger-Cohen Act of 1996
      •   Office of Management and Budget Circular A-11

       Our audit identified no areas where DOJ was not in compliance
with the laws and regulations referred to above. With respect to those
transactions not tested, nothing came to our attention that caused us
to believe that DOJ management was not in compliance with the laws
and regulations cited above.




                                 - 40 -
                Statement on Internal Controls

      In planning and performing our audit of DOJ’s IT systems
inventory, we considered DOJ’s internal controls for the purpose of
determining our audit procedures. This evaluation was not made for
the purpose of providing assurance on the internal control structure as
a whole. However, we noted certain matters that we consider to be
reportable conditions under the Government Auditing Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
DOJ’s ability to manage its IT systems. During our audit we found the
following internal control deficiency.

      •   DOJ does not have in place a means to report accurate,
          complete, and verifiable costs for its major IT systems.

       Because we are not expressing an opinion on DOJ’s internal
control structure as a whole, this statement is intended solely for the
information and use of DOJ in managing its IT investments. This
restriction is not intended to limit the distribution of this report, which
is a matter of public record.




                                   - 41 -
                                                        APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The conference report for the FY 2006 Science, State, Justice,
Commerce, and Related Agencies Appropriations Act (P.L. 109-108)
directs the OIG to: (1) produce an inventory of DOJ’s major IT
systems and planned initiatives, and (2) report on the effectiveness of
DOJ’s IT planning efforts. This audit report responds to the
congressional request to compile an inventory of DOJ’s major IT
systems.

     The objective of this audit was to produce an inventory of DOJ’s
major IT systems and planned initiatives, and provide the system
name, system description, DOJ component owner, cost, and
implementation status.

Scope and Methodology

      The audit was performed in accordance with the Government
Auditing Standards, and included tests and procedures necessary to
accomplish the audit objectives. We conducted field work at JMD
OCIO facilities and FBI headquarters in Washington, D.C., as well as
the DEA headquarters in Arlington, VA. In addition, we conducted
work at the FBI Criminal Justice Information Services Division in
Clarksburg, West Virginia.

      We interviewed officials from DOJ, the FBI, DEA, ATF, and BOP.
At the component level we interviewed officials in their OCIOs and
finance departments. We also interviewed the program managers for
the FBI’s Law Enforcement Online, DEA’s Concorde, and JMD’s Justice
Consolidated Network.

      We reviewed documents related to DOJ and components’ IT
oversight, ITIM and CPIC policies, financial systems, financial
statements, budget processes, and IT system cost data. In addition,
we reviewed relevant laws, congressional testimony, and prior OIG
and GAO reports.

     To identify major DOJ IT systems, we reviewed congressional,
OMB, and DOJ documents listing DOJ IT systems as major or high-risk.
We included those IT systems that Congress identified in the Science,
                                - 42 -
State, Justice, Commerce, and Related Agencies Appropriations Act of
2006. Likewise, we included in the inventory the IT systems with
Exhibits 300. We also included the DOJ IT systems on OMB’s High
Risk Project list, all the IT systems reviewed by the DIRB, several IT
systems shown on the OCIO Dashboard, and systems requiring Earned
Value Management.

     We used OMB Exhibits 53 and Exhibits 300 along with DOJ
documents to provide descriptions of the IT systems.

      To obtain the cost of the IT systems, we first asked component
finance staffs to provide us IT system costs from their financial
systems. The components explained that their financial systems do
not report by individual IT system. We also requested CIO staffs to
provide us with independent cost information, but they too do not
have the ability to provide individual IT system cost data.

      We therefore distributed a questionnaire to all 38 major IT
system managers requesting total system costs from inception to
September 30, 2005. We also requested in the questionnaire funding
projections through FY 2012 for the IT systems. We then selected
three systems to test the reliability and completeness of the costs
provided to us.

      DOJ officials provided us with the implementation status for each
IT system. Using Federal Information Security Management Act
information, the FBI provided us with implementation status of its IT
systems.




                                - 43 -
                                                        APPENDIX II

                   MAJOR IT SYSTEMS & PROJECTS

Table A. Conference Report to FY 2006 Science, State, Justice,
Commerce and Related Agencies Appropriations Act

     Component         Phase II System
1         JMD          Integrated Wireless Network
2         JMD          Unified Financial Management System
3         JMD          Public Key Infrastructure
4         ATF          National Integrated Ballistics Information Network
                       Integrated Automated Fingerprint Identification
5          FBI
                       System
6          FBI         Sentinel
7          FBI         Terrorist Screening Center
                       Next Generation Integrated Automated Fingerprint
8          FBI
                       Identification System
9          FBI         Law Enforcement National Data Exchange
10         FBI         Regional Data Exchange
11         FBI         Law Enforcement Online
                       Sensitive Compartmented Information Operational
12         FBI
                       Network
                       Biometric Reciprocal Identification
13         FBI         Gateway/Criminal Justice Information Sharing
                       Interoperability Initiative

Source: P.L. 109-108




                                   - 44 -
Table B. DOJ‘s OMB Exhibits 300

      Component      Phase II System
  1      JMD         Litigation Case Management System
  2      JMD         Unified Financial Management System
  3      OJP         Grants Management System
  4     EOIR         eWorld
  5      BOP         BOP Inmate Telephone System-II
                     Integrated Automated Fingerprint Identification
  6       FBI        System
  7       FBI        Sentinel
  8       FBI        Terrorist Screening Center
                     National Instant Criminal Background Check
  9       FBI        System
                     Next Generation Integrated Automated Fingerprint
10        FBI        Identification System
11        FBI        Digital Collection
12        FBI        National Crime Information Center
13        FBI        Foreign Terrorist Tracking Task Force
14        FBI        Law Enforcement National Data Exchange
15        FBI        Electronic Surveillance Data Management System
16        FBI        Technical Refresh Program
17        FBI        Regional Data Exchange
                     Computer Assisted Response Team Storage Area
18        FBI        Network
19        DOJ        Consolidated Enterprise Infrastructure

Source: DOJ Exhibits 300




                                 - 45 -
Table C. DOJ Systems Requiring Earned Value Management


     Component Phase II System
1       JMD    Integrated Wireless Network
2        JMD       Unified Financial Management System
3        JMD       Litigation Case Management System
4        JMD       Justice Consolidated Network
5        JMD       Public Key Infrastructure
6        DEA       Merlin
7        DEA       FIREBIRD
8       EOIR       eWorld
9        OJP       Grants Management System
10       FBI       Sentinel
                   Next Generation Integrated Automated Fingerprint
11       FBI
                   Identification System
12       FBI       Law Enforcement National Data Exchange
13       FBI       Electronic Surveillance Data Management System
14       FBI       Law Enforcement Online
                   Sensitive Compartmented Information Operational
15       FBI
                   Network
                   Biometric Reciprocal Identification
16       FBI       Gateway/Criminal Justice Information Sharing
                   Interoperability Initiative

Source: DOJ OCIO




                                - 46 -
Table D. DOJ and OMB Designated High-Risk Projects


        Component Phase II Systems
1          JMD    Integrated Wireless Network
2          JMD    Litigation Case Management System
3          JMD        Unified Financial Management System
4          FBI        Sentinel
5          FBI        Terrorist Screening Center
                      Next Generation Integrated Automated
6          FBI
                      Fingerprint Identification System
7          FBI        Law Enforcement National Data Exchange
                      Multi-Agency Information Sharing Initiative
8          FBI
                      Regional Data Exchange

Source: U.S. Government Accountability Office. Information Technology: Agencies
and OMB Should Strengthen Processes for Identifying and Overseeing High Risk
Projects, Report Number GAO-06-647, June 2006.

Table E. Department Investment Review Board


      Component Phase II Systems
    1    JMD    Integrated Wireless Network
    2      JMD        Unified Financial Management System
    3      JMD        Litigation Case Management System
    4      JMD        Classified Information Technology Program
    5      JMD        Justice Consolidated Network
    6      JMD        Public Key Infrastructure
    7      DEA        OCDETF Fusion Center System
                      Integrated Automated Fingerprint Identification
 8          FBI       System
 9          FBI       Sentinel
10          FBI       Terrorist Screening Center
11          FBI       Law Enforcement National Data Exchange

Source: DOJ Enterprise Architect




                                    - 47 -
Table F. OCIO Dashboard Systems with 3-years’ Cost
Exceeding $15 milliona


         Component   Phase II Systems
    1       JMD      Integrated Wireless Network
    2       JMD      Justice Consolidated Network
    3       JMD      Litigation Case Management System
    4       JMD      Unified Financial Management System
    5      JMD       Public Key Infrastructure
    6      DEA       FIREBIRD
    7      DEA       OCDETF Fusion Center System
    8      EOIR      eWorld
    9       OJP      Grants Management System
    10      FBI      Sentinel
    11      FBI      Terrorist Screening Center
                     Next Generation Integrated Automated Fingerprint
    12      FBI
                     Identification System
    13      FBI      Law Enforcement National Data Exchange
    14      FBI      Electronic Surveillance Data Management System
    15      FBI      FBI Security Management Information System
                     Multi-Agency Information Sharing Initiative
    16      FBI
                     Regional Data Exchange
    17      FBI      Law Enforcement Online
                     Sensitive Compartmented Information Operational
    18      FBI
                     Network

Source: DOJ OCIO
a
  IT systems - JMD Classified Information Technology Program, DEA Merlin, FBI
Investigative Data Warehouse, and FBI Computer Assisted Response Team Storage
Area Network - are monitored by the OCIO dashboard. However, they do not have
3-year costs exceeding $15 million. These four systems were included in the
inventory because they met additional criteria.




                                    - 48 -
                                                     APPENDIX III

                         PRIOR REPORTS

      In recent years, the Office of the Inspector General and the
Government Accountability Office (GAO) have conducted several audits
that are relevant to our review of DOJ IT systems. These audit reports
resulted in many findings and recommendations to DOJ and
component IT management, which focused on establishing and
correcting existing IT investment management (ITIM) and Capital
Planning and Investment Control (CPIC) structures. These reports did
not audit the reliability of cost data for any specific projects.

Department of Justice, Office of the Inspector General

      In December 2002, the OIG issued Audit Report 03-09, The
Federal Bureau of Investigation's Management of Information
Technology Investments, which reviewed the FBI’s IT management
processes and IT-related strategic planning and performance
measurement activities. The OIG reported that the FBI did not meet
the fundamental elements of a sound ITIM. The OIG also reviewed the
FBI’s management of Trilogy, the FBI’s largest and most critical IT
project at the time. The OIG found that the lack of critical IT
investment management processes contributed to missed milestones
and led to uncertainties about cost, schedule, and technical goals.

      Although the FBI took steps to improve IT management, the OIG
report concluded that the FBI’s IT strategic planning and IT
performance measurement were inadequate. Likewise, the FBI's
strategic plan did not include goals for IT investment management,
and the FBI’s strategic plan and performance plan was not consistent
with DOJ’s annual performance plan.

      In 2005, the OIG again looked at the FBI’s IT structure –
specifically the Trilogy IT project. The OIG issued Audit Report 05-07,
The Federal Bureau of Investigation’s Management of the Trilogy
Information Technology Modernization Project, to assess FBI’s Trilogy
project. In April 2004, the FBI had completed the infrastructure
upgrade portion of the Trilogy project. However, at the time of the
OIG audit the FBI was over budget and behind schedule for the Virtual
Case File system of Trilogy. This report contained nine
recommendations regarding the FBI’s management of the remaining
aspects of the Trilogy project and its IT management in general,

                                 - 49 -
including one to ensure its financial systems could track Trilogy project
costs accurately and completely.

      The OIG has also reviewed enterprise architecture development
and IT management at other DOJ components. In September 2004,
the OIG issued Audit Report 04-36, The Drug Enforcement
Administration's Management of Enterprise Architecture and
Information Technology Investments. The OIG concluded that the
DEA was effectively pursuing completion of both its enterprise
architecture and ITIM. The OIG provided the DEA with seven
recommendations for developing the enterprise architecture and ITIM.

      In November 2005, the OIG issued Audit Report 06-02, The
Status of Enterprise Architecture and Information Technology
Investment Management in the Department of Justice. At the time of
the OIG audit, DOJ had not yet established an Enterprise Architecture
or ITIM processes and therefore was not in compliance with the
Clinger-Cohen Act, OMB guidance, and DOJ regulations. However,
DOJ was actively developing and implementing new frameworks aimed
at establishing an Enterprise Architecture and ITIM processes. The
OIG provided seven recommendations to JMD to improve DOJ’s IT
management.

Government Accountability Office

      The GAO has also reviewed the FBI Trilogy Project and other
issues concerning management of IT at DOJ. In February 2006, GAO
issued Federal Bureau of Investigation: Weak Controls over Trilogy
Project Led to Payment of Questionable Contractor Costs and Missing
Assets, which identified millions of dollars in questioned costs and
missing assets.

      In 2005 and 2006, the GAO reviewed government-wide IT and
the Office of Management and Budget’s processes for overseeing these
investments.39 The GAO’s reports reviewed IT systems identified as
high-risk projects and those listed on OMB’s Management Watch List.
GAO concluded that OMB should develop single lists for both high risk
      39
          Government Accountability Office. Information Technology: OMB Can
Make More Effective Use of Its Investment Reviews, Report Number GAO-05-276,
April 2005.

       Government Accountability Office. Information Technology: Agencies and
OMB Should Strengthen Processes for Identifying and Overseeing High Risk Projects,
Report Number GAO-06-647, June 2006.

                                      - 50 -
and Management Watch List projects and their respective deficiencies,
and direct agencies to consistently apply the criteria for designating
projects at high risk.

      In 2005, the GAO completed an update to Congress on
government-wide high-risk areas.40 The GAO identified 25 high risk
areas, which included managing federal real property and protecting
the federal government’s information system and the nation’s critical
infrastructure. Similar to what the OIG found in the current audit, the
GAO determined the actual cost data for IT systems at other agencies
was unreliable. Further, the GAO found these agencies relied on
ad-hoc costing processes rather than formal cost accounting systems
with adequate controls.




      40
        Government Accountability Office. High-Risk Series: An Update, Report
Number GAO-05-207, January 2005.
                                    - 51 -
                                                                                                APPENDIX IV

                        MAJOR DOJ IT SYSTEMS – DESCRIPTION &
                              IMPLEMENTATION STATUS

Component              IT System                                  Description                        Implementation
                                                                                                          Status
   FBI      Integrated Automated Fingerprint    IAFIS provides fingerprint identification services   Phase 8 –
            Identification System (IAFIS)       for local, state, federal and international law      Operations &
                                                enforcement community and homeland                   Maintenance
                                                security.
   FBI      Next Generation Integrated          The NGI initiative will study the integration        Phase 3 –
            Automated Fingerprint               strategies and indexing of additional biometric      Acquisition
            Identification System (NGI)         data, which will support a futuristic multimodal     Planning
                                                system.
   FBI      National Instant Criminal           Provides criminal background checks in support       Phase 8 –
            Background Check System             of the Brady Acta                                    Operations &
                                                                                                     Maintenance
   FBI      National Crime Information Center   NCIC is an on-line information service managed       Phase 8 –
            (NCIC)                              by the FBI to provide a means for sharing            Operations &
                                                criminal justice information about individuals,      Maintenance
                                                vehicles, and property associated with criminal
                                                activity.




                                                   - 52 -
FBI   Law Enforcement Online                LEO is a global virtual private network provided   Phase 7 –
      Re-engineering/Relocate               by the FBI to all levels of the law enforcement,   Implementation &
                                            criminal justice, and public safety communities,   Integration
                                            which provides secure dissemination of
                                            Sensitive But Unclassified information.
FBI   Law Enforcement National Data         The FBI's N-DEx initiative will develop a          Phase 4 – Source
      Exchange (N-DEx) Rev 9/7              complex interactive information sharing            Selection
                                            network which implements the core platform for
                                            DOJ Law Enforcement Information Sharing.
FBI   Combined DNA Index System             CODIS enables federal, state, and local crime      Phase 3 –
      (CODIS)                               labs to compare and exchange DNA profiles          Acquisition
                                            electronically, thereby linking crimes to each     Planning
                                            other and to convicted suspects.
FBI   Electronic Surveillance Data          Involves 2 elements: (1) increasing the FBI's      Phase 8 –
      Management System                     ability to manage, analyze, and share electronic   Operations &
                                            surveillance, seized media and other types of      Maintenance
                                            collected data and (2) integrating data analysis
                                            capabilities that improve its efficiency.
FBI   Investigative Data Warehouse          Investigative Data Warehouse is a concept          Phase 8 –
                                            describing the preparation and organization of a   Operations &
                                            variety of databases so they can be searched in    Maintenance
                                            a coordinated fashion along with other
                                            databases.
FBI   Biometric Reciprocal Identification   Provide secure electronic connectivity to          Various
      Gateway/Criminal Justice              customers who access FBI's LEO services,
      Information Services                  IAFIS, NCIC, and CODIS.
      Interoperability Initiative
FBI   Computer Assisted Response Team       Systems used to conduct forensic examinations      Phase 2 –
      Storage Area Network                  of computers and computer related media in         Requirements
                                            support of the FBI, intelligence organizations     Development
                                            and other key law enforcement agencies.


                                               - 53 -
FBI   Sentinel                            Provides electronic case, records, workflow,         Phase 8 –
                                          evidence management, case tracking and               Operations &
                                          records search and reporting capabilities that       Maintenance
                                          will replace the current paper-based case
                                          management system and its related supporting
                                          capabilities.
FBI   Data Centers                        The Data Centers’ goals are to provide               Phase 8 –
                                          continuous, effective automated production           Operations &
                                          workload support and business continuity for all     Maintenance
                                          FBI investigative and administrative missions.
FBI   Technical Refresh Program           Provides for the technical refreshment of FBI        Phase 8 –
                                          Trilogy computing assets.                            Operations &
                                                                                               Maintenance
FBI   Digital Collection                  The Digital Collection Project enables the FBI in    Phase 8 –
                                          collecting evidence and intelligence to facilitate   Operations &
                                          and support national security, domestic              Maintenance
                                          counterterrorism, and criminal investigative
                                          efforts.
FBI   Multi-Agency Information Sharing    Multi-Agency Information Sharing Initiative          Phase 8 –
      Initiative Regional Data Exchange   Regional Data Exchange will combine and share        Operations &
                                          regional investigative information and provide       Maintenance
                                          powerful tools for analyzing the integrated data
                                          sets.
FBI   Terrorist Screening Center          Terrorist Screening Center consolidates a            Phase 8 –
                                          terrorist screening database of domestic and         Operations &
                                          international terrorists.                            Maintenance




                                             - 54 -
FBI   Foreign Terrorist Tracking Task    The Foreign Terrorist Tracking Task Force is co-    Phase 8 –
      Force                              locating and managing data for end-to-end           Operations &
                                         decisions that contribute to the mission of         Maintenance
                                         keeping foreign terrorists and their supporters
                                         out of the United States or lead to their
                                         exclusion, denial of benefits, surveillance, or
                                         prosecution.
FBI   Security Management Information    Integrates security into all business processes     Phase 5 - Design
      System                             to protect FBI employees, information,
                                         operations, and facilities. Emphasizes
                                         information sharing and knowledge
                                         management to facilitate threat identification,
                                         risk mitigation, and incident prevention.
FBI   Information Assurance Technology   Designs and develops enterprise security            Various
      Infusion                           solutions for FBI information systems.
FBI   Sensitive Compartmented            Provides Top Secret/Sensitive Compartmented         Phase 8 –
      Information Operational Network    Information capabilities including LANs, security   Operations &
                                         measures, access authentication and control,        Maintenance
                                         file/print services, administrative directory
                                         services, desktop computers, and software.
DEA   Model 204 Corporate Systems        The M204 system includes approximately 32           Operational
                                         core investigative and administrative
                                         applications that support the DEA's mission,
                                         strategic goals, and objectives as well as
                                         serving specific needs of external DEA partners.
DEA   E-Commerce-Controlled              The E-Commerce-Controlled Substances                Developmental
      Substances Ordering System         Ordering System and the Electronic
                                         Prescriptions for Controlled Substances system
                                         will enable the safe electronic transmission of
                                         prescriptions and the electronic ordering of
                                         controlled substances.


                                            - 55 -
DEA   EPIC Information Systems        E-gov modernization of systems in this one-of-       Operational
                                      a-kind national repository for tactical law
                                      enforcement intelligence to federal, state, and
                                      local law enforcement.
DEA   Concorde                        Concorde is the “To Be” e-gov solutions              Development
                                      architecture that seamlessly performs all DEA
                                      re-engineered business processes. Initial focus
                                      is support to DEA investigations and
                                      information sharing.
DEA   Firebird                        Primary infrastructure enabling investigative        Operational
                                      case management and all other Sensitive But
                                      Unclassified information systems. The client-
                                      server based network links DEA offices and
                                      components worldwide and supports the full
                                      spectrum of DEA operations.
DEA   Merlin                          Merlin provides the single point of connectivity     Operational
                                      between DEA offices for rapid transmission of,
                                      and access to, classified investigative and
                                      intelligence information.
DEA   Organized Crime & Drug          The OCDETF Fusion Center System will                 Operational
      Enforcement Task Force Fusion   establish a single entity for drug and related
      Center System                   financial investigative information.
JMD   Integrated Wireless Network     IWN is an interagency initiative that will provide   Operational
                                      a secure, tactical narrowband communications
                                      capability with required functionality, including
                                      interoperability to the law enforcement and
                                      homeland security agents in DOJ, Treasury and
                                      Homeland Security.
JMD   Unified Financial Management    DOJ has initiated an effort to implement the         Development
      System                          UFMS, which will improve the existing and
                                      future financial management and procurement
                                      operations across DOJ.

                                         - 56 -
JMD   Litigation Case Management          Litigation Case Management System is the first      Development
      System                              investment to emerge from the Case
                                          Management Common Solutions initiative and is
                                          focused on providing a common litigation case
                                          management solution for the seven DOJ
                                          litigating divisions.
JMD   Classified Information Technology   Classified Information Technology Program will      Implementation
      Program                             provide an enterprise-wide seamless IT
                                          infrastructure for electronically sharing,
                                          processing, and storing information classified at
                                          the Secret, Top Secret, and Sensitive
                                          Compartmented Information levels.
JMD   Justice Consolidated Office         JCON is the critical infrastructure that provides   Operational
      Network                             a reliable and robust common office automation
                                          platform upon which 16 of DOJ’s litigating,
                                          management, and law enforcement components
                                          operate their mission-critical applications.
JMD   Public Key Infrastructure           The Public Key Infrastructure will provide          Implementation
                                          secure communications and information sharing
                                          inside and outside DOJ and enable rigorous
                                          identification and authentication of IT system
                                          users, to better protect DOJ sensitive and
                                          classified information and assets.
ATF   National Integrated Ballistics      Facilitates sharing ballistic crime gun evidence    Operational
      Information Network                 information across jurisdictional boundaries
                                          allowing state and local law enforcement
                                          agencies to work together to prevent terrorism
                                          and violent crime.
BOP   Inmate Telephone System-II          Provides telephone calling service to and from      Operational
                                          inmates and provides recording of phone call
                                          services.


                                             - 57 -
       EOIR       eWorld                                   eWorld is a project that will enable EOIR to       Operational
                                                           make the transition from paper to electronic
                                                           documents for its official adjudication records,
                                                           thereby increasing access and efficiency.
       OJP        Grants Management System                 Provides automated support in managing the         Operational
                                                           application for and approval of federal grant
                                                           funds. Grants Management System enables
                                                           managers to track and monitor over 20,000
                                                           grants. It is a web-based, data driven
                                                           application, giving access to applicants around
                                                           the U.S.

Source: Description – OMB Exhibit 53 and Exhibits 300, and DOJ documents
a
    Brady Handgun Violence Prevention Act (P.L. 103-159)




                                                              - 58 -
                                                        APPENDIX V

      DESCRIPTIONS OF THE LEO ACTIVITIES FUNDED
                  BY THE FBI AT LSU

Hostage Barricade System

      The Hostage Barricade System research project is part of the
FBI’s Critical Incident Response Group, and its purpose is to gather
and analyze statistics on hostage, barricade, and suicide incidents in
the United States.

Bomb Data Center

       The Bomb Data Center is also located within the FBI’s Critical
Incident Response Group and its mission is to enhance the capabilities
of FBI Special Agent Bomb Technicians, state and local bomb squads,
and other federal agencies to respond to bombing incidents, terrorist
threats, and special events security through intelligence sharing,
training, and other resources.

Law Enforcement Linguistic Access

      The FBI and other DOJ components, as well as the Intelligence
Community, designed the Law Enforcement Linguistic Access system
to maximize the use and availability of linguists who are currently on
contract to any one of the partner agencies.

National Center for Missing and Exploited Children

      The National Center for Missing and Exploited Children is a
private, non-profit organization that operates under a congressional
mandate and works in cooperation with DOJ’s Office of Juvenile Justice
and Delinquency Prevention. An FBI Supervisory Special Agent
coordinates FBI and National Center for Missing and Exploited Children
resources to facilitate the most effective FBI response to child
abductions, parental kidnappings, and sexual exploitation of children.

Katrina Fraud Task Force

      The Task Force includes the FBI and other DOJ components,
other federal agencies, and various representatives of state and local
law enforcement. The Task Force coordinates on the federal, state,

                                 - 59 -
and local levels with law enforcement and with other entities involved
in the relief and reconstruction effort related to Hurricane Katrina.

InfraGuard

       InfraGuard is an FBI sponsored program that shares information
and intelligence to prevent hostile acts against the United States. In
addition to the FBI, InfraGard includes businesses, academic
institutions, state and local law enforcement agencies, and other
participants.41




       41
          For presentation purposes we have included with InfraGuard, amounts for
the National Infrastructure Protection Center. The National Infrastructure Protection
Center was transferred from the FBI to Department of Homeland Security in 2003.
                                       - 60 -
                                                       APPENDIX VI

                         OTHER MATTERS

      In the course of this audit, we identified concerns regarding
DOJ’s financial and budget systems and Capital Planning and
Investment Control cost reporting. We believe that DOJ should
consider these concerns as it develops its CPIC cost reporting function.

FBI Requisition Databases and CPIC Cost Reporting

      Officials from various FBI divisions told us that tracking purchase
requisitions and the resulting expenditures using FMS, the FBI’s core
financial system, is sometimes difficult and time-consuming. In order
to make tracking requisitions faster and easier, these divisions have
developed databases that duplicate and add detail to their requisitions
in FMS.

       The FBI has created and operates a number of requisition
databases at many of its operating units. The CJIS Division was the
first to create its requisition database, Budgetary Evaluation and
Analysis Reporting System (BEARS) in 2002. Since 2002 other FBI
divisions have adopted similar databases that are also called BEARS.

      In addition to the various requisition databases using the name
BEARS, the FBI Office Technology Development uses Project and
Account Management System (PAMS). PAMS was created in the late
1990s for project management purposes, and in 2003 a requisition
tracking function was added.

      The multi-system approach the FBI uses for tracking requisitions
may be reliable within a division, but we believe the coordination and
sharing of cost data for CPIC reporting is weak across FBI divisions.

      We discussed with FBI officials the future of BEARS and PAMS
considering the planned replacement of FMS with the DOJ-wide Unified
Financial Management System (UFMS). Officials told us they
anticipate the UFMS will incorporate the requisition tracking functions
of BEARS and PAMS, so that supplement systems to the core financial
system will not be necessary in the future.




                                 - 61 -
Funding More Easily Tracked Than Expenditures

        Our testing of total costs reported by IT systems at the FBI,
DEA, and JMD demonstrates that these costs can be more easily
tracked when the funding for projects is earmarked in appropriations
or segregated within a component’s budget. However, this testing
also showed that components often support IT systems from multiple
sources of funding even when designated funding exists. Therefore it
is difficult to ensure the costs reported for any IT system are
complete.

Using UFMS for CPIC Cost Reporting Function

      Weaknesses associated with DOJ’s various core financial systems
have been a longstanding concern. To address this issue, DOJ will be
replacing the existing financial systems with the UFMS. The UFMS is
designed to improve financial management and procurement
operations across DOJ. It will also likely replace the requisition
tracking databases at the FBI. Although CPIC cost reporting is not a
requirement of a federal financial system, we believe DOJ should
examine the possibility of using the UFMS to permit CIOs and other
oversight bodies to obtain reliable cost data on IT systems.




                                - 62 -
                                          APPENDIX VII

                   ACRONYMS

ATF      Bureau of Alcohol, Tobacco, Firearms, and Explosives
BEARS    Budgetary and Evaluation and Reporting System
BOP      Bureau of Prisons
CIO      Chief Information Officer
CJIS     Criminal Justice Information Services
CPIC     Capital Planning and Investment Control
CODIS    Combined DNA Index System
DEA      Drug Enforcement Administration
DIRB     Department Investment Review Board
DME      Development, Modernization, and Enhancement
DOJ      Department of Justice
eCPIC    electronic Capital Planning and Investment Control
EOIR     Executive Office of Immigration and Review
FBI      Federal Bureau of Investigation
FFS      Federal Financial System
FMIS     Financial Management Information System
FMS      Financial Management System (FBI)
FTE      Full-time equivalent
FY       Fiscal Year
GAO      Government Accountability Office
JCON     Justice Consolidated Network
JIST     Justice Sharing Information Technology
JMD      Justice Management Division
IAFIS    Integrated Automated Fingerprint Identification
         System
IT       Information Technology
ITIM     Information Technology Investment Manual
IWN      Integrated Wireless Network
LEO      Law Enforcement Online
LSU      Louisiana State University
NCIC     National Crime Information Center
NGI      Next Generation Integrated Automated Fingerprint
         Identification System
NSB      National Security Branch
OCDETF   Organized Crime and Drug Enforcement Task Force
OCIO     Office of the Chief Information Officer
OIG      Office of the Inspector General
OJP      Office of Justice Programs
OMB      Office of Management and Budget
OTD      Operational Technology Division
                         - 63 -
PAMS   Project and Account Management System
PMO    Project Management Office
STB    Science and Technology Branch
UFMS   Unified Financial Management System
USC    United States Code




                    - 64 -
                           APPENDIX VIII

THE JMD RESPONSE TO THE DRAFT REPORT




                - 65 -
- 66 -
- 67 -
                                                       APPENDIX IX

 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

      The OIG provided a draft of this audit report to the Department
on April 24, 2007, for review and comment. The Department’s
June 4, 2007, response is included as Appendix VIII of this final
report. The Department concurred with the three recommendations in
the audit report and also provided comments regarding several
general issues covered in the report. In response, we made changes
to the report where appropriate. Our analysis of the Department’s
response follows.

General Comments

       In its response, the Department expressed concern over a
statement in the executive summary of the report that described “the
absence of control procedures” related to the CPIC cost reporting
function. To clarify our intent, we have revised the sentence to read
as follows: “We concluded that component CIOs lack the control
procedures necessary to ensure accuracy and completeness in the
CPIC cost reporting function and this likely contributed to incomplete
costs reported for the DOJ IT systems we tested.”

      The Department’s response stated that we did not discuss in our
report the difference between funding that is authorized, obligated,
and expended. The Department concluded that responses to our
survey instrument from the different IT system project managers
would likely show great discrepancies when compared to one another,
yet each could be accurate. We considered that costs may be reported
in various stages in the budget cycle during our fieldwork and do not
believe this had any significant impact on our conclusions. Although
we did not highlight in a separate section of this report how costs may
be reported at different stages in the budget cycle, we described how
some JCON system costs were incorrectly reported in the OMB Exhibit
300 because the program office reported appropriated amounts rather
than outlays. Although the appropriated amount was accurate, the
cost reporting was not correct because the cost basis requested was
outlays.

      The Department’s response also included a statement that its
lack of a full cost accounting system to identify the costs of IT systems
does not necessarily mean that it did not have reasonable cost data
                                   - 68 -
over the decision-making life of the project, nor does it mean decisions
were made on materially flawed cost information. The objective of our
work was not to determine whether the Department relied on faulty
cost information to make decisions regarding IT systems, and we
therefore did not make any assertions to that effect. However, from
our work we concluded that cost information on Department IT
systems contained in important documents provided to the
Department’s oversight entities was not always complete and that the
Department lacks all of the necessary controls that would ensure
completeness of cost reporting.

       The Department’s response also discussed our decision to
include JCON system costs prior to FY 2002. The Department’s
position is that each JCON deployment constituted a separate
reporting entity and that its explanation for the difference in the costs
reported should be recognized in the report. Our report disclosed that
the JCON PMO only provided us with cost information related to the
current standard architecture, or JCON IIA. However, as stated in the
report, in our view the true cost of the JCON system should include all
costs incurred since JCON’s inception in 1996 — which the Department
did not provide — and not just the cost of the current version of the
system. Therefore, we believe that our description of the costs related
to JCON is accurate.

      The Department’s response also requested that we clarify a
statement made in the conclusion section of the report concerning the
lack of verifiable cost data, and we have done so. Taken out of
context without the preceding sentence, we agree it may have been
possible for one to conclude that no cost data was verifiable. This was
not the case since much of the report details how we were able to
verify some costs of the three systems we tested.

      The Department concluded its response by saying that it is
committed to reliable and effective IT project management. It
commented that a significant portion of our report focuses on cost
reporting, but cost is only one aspect of an array of project
management activities performed by the CIO. We agree that the CIO
engages in a wide variety of project management activities.




                                 - 69 -
Status of Recommendations

1. Resolved. This recommendation is resolved based on the
   Department’s reporting that it will work with OCIO staff to look at
   cost accounting policies and procedures that could be improved to
   ensure project teams at the component level report costs more
   accurately. The Department also said that its Finance Staff and
   the OCIO will look at ways to clarify project start and end dates,
   timing issues, and ensure that reporting terms are clearly defined
   and consistent across reports and components. The
   recommendation can be closed when we receive documentation
   outlining the policies and procedures used to improve cost
   reporting for IT systems.

2. Resolved. This recommendation is resolved based on the
   Department’s response, which states that the Exhibit 53 and
   budget submission were integrated for the FY 2008 budget
   formulation cycle. This recommendation can be closed when we
   review documentation that demonstrates amounts reported in the
   FY 2008 Exhibit 53 can be traced to the components’ overall
   budgets and financial systems.

3. Resolved. This recommendation is resolved based on the
   Department’s agreement to assess the feasibility of using the
   Unified Financial Management System for capital planning and
   investment cost reporting. This recommendation can be closed
   when we receive documentation of the assessment.




                                - 70 -
